<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                     JOE SKEEN, New Mexico, Chairman
 RALPH REGULA, Ohio                  NORMAN D. DICKS, Washington
 JIM KOLBE, Arizona                  JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          MAURICE D. HINCHEY, New York
Washington                           MARTIN OLAV SABO, Minnesota 
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Smithsonian Institution..........................................    1
 National Endowment for the Arts..................................   91
 National Endowment for the Humanities............................  167
 Advisory Council on Historic Preservation........................  243
 Commission of Fine Arts..........................................  249
 IMLS--Office of Museum Services..................................  279
 National Capital Planning Commission.............................  281
 Holocaust Memorial Council.......................................  289

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 79-557                     WASHINGTON : 2002




                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                         Wednesday, March 20, 2002.

                        SMITHSONIAN INSTITUTION

                               WITNESSES

LAWRENCE M. SMALL, SECRETARY, SMITHSONIAN INSTITUTION
JOHN DAILEY, DIRECTOR, NATIONAL AIR AND SPACE MUSEUM
LUCY SPELMAN, DIRECTOR, NATIONAL ZOOLOGICAL PARK

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Welcome, Mr. Secretary. We are looking forward 
to hearing your testimony on your fiscal year 2003 budget. I 
would ask that you summarize your opening statement. Your 
complete statement will be made a part of the record.
    Before you begin, I will defer to Mr. Dicks, the Ranking 
Member, for any opening remarks he may wish to make.

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    I want to welcome Secretary Larry Small. I am anxious to 
hear Secretary Small's testimony this morning because there are 
so many things happening with the Smithsonian recently. I had a 
chance to talk briefly last week with Mr. Small in my office 
and I look forward to hearing more details about the work being 
done at the Smithsonian.
    Everyone here recognizes how valuable the Smithsonian is to 
our Nation but I think it is critically important for the 
Congress, specifically this subcommittee, to look carefully at 
the budget and the planning for the Institution. The 
Administration this year has requested a modest increase for 
the Smithsonian but we all now are aware of the tremendous 
backlog of maintenance and repair needs at its facilities as 
estimated by Mr. Small and confirmed by the NAPA study, at over 
$1 billion. I haven't seen anything in this budget that 
genuinely addresses that need and I am disappointed.
    There are also program transfers requested in the budget 
submission. I have been skeptical of similar transfers in other 
areas of the budget and look forward to hearing more detail 
from Mr. Small this morning.
    The budget also contains a request of $8.8 million for 
security services and $11 million for facilities security, in 
addition to the $21.7 million related to homeland security 
costs that we appropriated after September 11. I would like to 
hear more about how these funds are being used and if we are 
meeting the needs.
    Lastly, I look forward to an update on two major 
initiatives of the Smithsonian, the Dulles facility and the 
National Zoo Renewal Plan. The subcommittee obviously has great 
interest in both projects.
    Thank you, Mr. Chairman, and we welcome Mr. Small and look 
forward to his testimony.
    Mr. Skeen. Over the last several years, you have made some 
significant organizational changes, including downsizing. Can 
you briefly describe these actions and what effect they have 
had on your organization?

                     Opening Statement of Mr. Small

    Mr. Small. Do you want me to make my opening statement 
first or get right into questions?
    Mr. Skeen. We will let you do that.
    Mr. Small. I want to thank all of you for your continued 
support and for this opportunity to provide the testimony on 
behalf of the Smithsonian. I have five or six minutes worth of 
remarks and then we can go directly to your questions.

                    REVITALIZATION AND MODERNIZATION

    It is my continued and firm belief that if the Smithsonian 
deals with the challenges it has faces head on and we build on 
our successes in a thoughtful way, we can modernize one of 
America's greatest institutions and by the end of the decade, 
transform it into a truly 21st Century organization, one that 
is capable of touching the lives of Americans wherever they 
live.
    To do that, we are in the midst of a revitalization 
campaign that is absolutely unprecedented in the history of the 
entire museum world, one that will transform the Smithsonian. 
We have four major and simultaneous projects--the New Air and 
Space Museum at Dulles Airport; the new National Museum of the 
American Indian on the Mall; the renovation of the Patent 
Office Building that houses the National Portrait Gallery and 
the Smithsonian American Art Museum; and the complete 
renovation of the exhibitions in the Smithsonian's National 
Museum of American History.
    The entire cost of these four major and simultaneous 
efforts is ten times larger than all of the facilities projects 
tackled by the Smithsonian in the previous decade. To put it 
another way, what is going on at the Smithsonian right now is 
the equivalent of raising the money for and building four major 
museums, each equivalent in cost and complexity to the U.S. 
Holocaust Memorial Museum, all being done at the same time.
    In addition to these efforts, the Smithsonian is seeking to 
make massive repairs and deal with public safety issues at the 
National Zoo and the National Museum of Natural History which 
are two of the most visited locations in the Capitol and these 
were built in 1890 and 1910 respectively.
    When I testified before this committee two years ago, I 
said much of the Smithsonian was looking shabby. Since that 
time, the National Academy of Public Administration did a study 
which was requested by this committee, which said that the 
Smithsonian would need $1.5 billion over the course of this 
decade to restore its buildings. In addition, we need to raise 
between $500 million and $1 billion from the private sector to 
renovate the hundreds of aging exhibits in our museums, half of 
which are over 15 years old, some of which are more than 40 
years old. We have grandparents who are visiting today with 
their children and grandchildren who are seeing exhibits they 
saw when they came as kids. That just is not appropriate and is 
unacceptable.
    Modernizing the Smithsonian, making these monumental 
changes is expensive and can be controversial, as change often 
is. To my mind, critics of what we are doing have missed two 
important points. First, the modernization of the Smithsonian, 
which is the largest museum and research complex in the world, 
involves huge, expensive projects that are necessary to reverse 
a downward trajectory of benign neglect that has gone on for 
years and years. No museum organization in the world has ever 
required such a large revitalization program.

                        PRIVATE SECTOR DONATIONS

    Second, the success of the Smithsonian over the past almost 
156 years has been the result of funding from both the public 
and private sectors. From day one, when English scientist James 
Smithson left his fortune to the United States resulting in the 
Institution that his will said had to be named after him, there 
have been people who have been critical of private sector 
funding of an institution they think should be paid for solely 
with taxpayer dollars. But that has never, ever been the case. 
While there was controversy when the Smithsonian established 
the Hirshhorn Museum with a private sector donation and private 
sector collection, when the Smithsonian had the Sackler Gallery 
put in place, when Ralph Lauren gave money to restore the Star 
Spangled Banner and when other large gifts to the Smithsonian 
were given, there was controversy, but all of these actions 
have ended up being successful.
    Given that there is over $1 billion that the Smithsonian 
still needs to raise from the private sector, it is obvious 
there will be more of these large commitments and they too will 
be successful. The Smithsonian today is followingexactly the 
same policies for private sector donations it always has, they have 
worked well in the past and there is no reason to believe they won't 
continue to do so.

                                RESEARCH

    With respect to our research mission, the Smithsonian 
employs some of the brightest minds in the country and we 
really want that to continue but today fewer than 10 percent of 
the scientists funded by the Federal appropriations to the 
Smithsonian are under the age of 40. We can't continue to excel 
if we don't have that pipeline that permits the attraction of 
top new talent.
    To help us better assess how to conduct science at the 
Smithsonian, we now have the assistance of three groups--a 
Science Commission formed of eminent scientists from around the 
country and two other special groups being established at the 
request of the Office of Management and Budget with the help of 
the National Academy of Sciences and the National Academy of 
Public Administration. We look forward to hearing from all 
three of these during the course of this year.

                                OUTREACH

    As to our efforts to get the Smithsonian out of Washington 
and all throughout the United States to touch the lives of 
Americans all over the country, through our Affiliations 
Program, we are lending some of our 142 million objects in the 
Smithsonian to museums large and small across the Nation. We 
now have 97 affiliate museums in 30 States and that is an 
increase in that number of over 400 percent in just two years' 
time.
    Our Traveling Exhibition Service, the largest of its kind 
in the world, reached more than 5 million people across the 
country last year. We did 54 exhibitions in 289 different 
locations. We have over 1 million teachers and students who are 
using Smithsonian resources and more than 350,000 people took 
Smithsonian courses and trips, saw performances, study tours 
and regional events.
    So getting all this done has involved making a lot of 
changes, particularly in the leadership team throughout the 
Smithsonian and in that area, I am really happy with the many 
talented individuals that we have brought on board. We still 
have years of work in front of us but we have made very 
significant progress. The Smithsonian certainly merits every 
ounce of energy and effort we can muster.
    Once again, let me say thank you for the support of this 
committee. It has been vital to this institution for many, many 
years. I am open to any questions you may have.
    Thank you, Mr. Chairman.
    [The written statement of Mr. Small follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         ORGANIZATIONAL CHANGE

    Mr. Skeen. For the last several years, you have made some 
significant organizational changes including downsizing.
    Mr. Small. We have changed and I think the most important 
thing we have done is recognize that we have these tremendous 
tasks--the building of these huge museums, the renovation of 
half of the Smithsonian's 400 buildings which are deemed to be 
substandard--and what I am proud about is we have been able to 
bring in terrific people to carry this out.
    We brought in the Director of Facilities from NASA, we 
brought in the Principal Deputy Comptroller of the Defense 
Department and the head of the budget for the Defense 
Department, a new Chief Information Technology Officer, and we 
have replaced six or seven museum directors and the Zoo 
director, so we have a great, new management team that is 
forming. We just announced yesterday a wonderful new director 
for the Freer-Sackler Gallery, a great new director for the 
Hirshhorn. So there have been a lot of changes but I am 
delighted with the progress we have made with the management 
team. We really have a great group of people forming to lead 
this institution into the 21st Century.

                         IMPACT OF SEPTEMBER 11

    Mr. Skeen. Specifically, how have the events of September 
11 affected the Smithsonian both from a visitation standpoint 
and your recent decision to conduct a reduction in force?
    Mr. Small. The aftermath of September 11 has been very, 
very serious. Overall, since that time, the attendance at the 
Smithsonian--the Smithsonian has the largest attendance of 
museum organizations in the world, we get here in Washington 
about 33 million visits to the Zoo and to the museums in a 
year's time--attendance fell off in October and November after 
the September tragedy by 44 to 46, 47 percent, a huge drop. It 
came up at Christmastime, then went back down again. Overall 
since that time, we have been down about a full third.
    That has reduced enormously the revenue that comes into the 
shops, to the IMAX theaters, to the restaurants and so we have 
had to cut back on the staff that is paid for by those funds. 
You have seen that in museums and other organizations 
throughout the country.
    The recession and reduced travel has also had a very 
significant effect on Smithsonian Magazine. Three-fifths of our 
business gain that helps the Smithsonian comes from the 
Magazine. The Magazine's number one category of advertising is 
travel. That has been down, so that has been our finances as 
well.
    Right now, we are still running about a third off in 
attendance. We are moving into the high season and it is our 
hope that it will come back.

                     LEVEL OF SMITHSONIAN ACTIVITY

    Mr. Skeen. Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Secretary, in reviewing this budget, it is hard to 
avoid the question of whether the Smithsonian has spread itself 
too thin. There seems to be, in the minds of some, too many new 
museums being built or proposed at the same time. In addition, 
you are funding massive rehabilitation projects for three 
existing museums.
    We met last week on your efforts to find funding for a 
backlogged maintenance program costing about $1.5 billion. That 
doesn't count proposals for new museums which are being 
considered both downtown and on the Hill.
    In your defense, I would certainly acknowledge that 
Congress is a part of this problem but today, we are looking at 
all of these costs within the Federal budget. I want to give 
you this opportunity to kind of defend your program and tell us 
why you think you can do all these things at once.
    Mr. Small. First of all, I think we don't have any choice. 
All these projects have been long approved. The Congress 
mandated the National Air and Space's extension at Dulles a 
long time ago; the National Museum of the American Indian was 
approved at the beginning of the past decade; and the rest of 
what is going on with the Smithsonian is the renovation and 
repair of existing facilities. Everybody knows when you have a 
problem in your own house, if you don't fix your problems 
today, they just get bigger tomorrow.
    Mr. Dicks. Pay me now or pay me later, right?
    Mr. Small. It is just going to get worse. So I think in 
terms of spreading itself too thin, the mere fact that we have 
had to hire in all these professionals to tackle the task that 
is ten times more costly than the Institution faced in the last 
decade would indicate, yes, that is right but that is water 
over the dam. We have to deal with what we have on our plate 
today.
    The new museums are being built, the contracts have been 
let and the other museums are going down the tubes in terms of 
their physical situation, just getting worse and worse and they 
have got to be repaired.
    We are now putting the staff in place to deal with these 
issues, so I am confident we can deal with them.
    Mr. Dicks. Do you have a longer term strategy to try to 
deal with the $1.5 billion backlog?
    Mr. Small. We are working with our congressional regents 
now to determine how best to do that. It is clear to me that 
unless we get additional support, the American people are just 
going to have a bill that is going to get to the $2 billion and 
then the $3 billion range but we have not yet figured out 
exactly the way to get the necessary bi-partisan support to get 
the funds to make that happen.
    Mr. Dicks. Unfortunately, our committee has a number of 
backlogs. For example, the Forest Service has a backlog of 
somewhere between $7 and $10 billion just on forest roads and 
the Park Service has a multibillion dollar backlog which 
issignificant. So we understand and I think this is an important point 
you have to continue to make within the Administration, at OMB and with 
people at the White House that we have neglected some of these things 
and either we have to figure out a strategy for restoration or we are 
going to have to start maybe shutting down a few things, which I think 
would be unacceptable to the American people.
    I wish you well in searching for an answer. I think 
Congress has to be helpful and I am glad you are telling us 
that the regents that have been appointed to serve with you are 
a part of your effort to come up with some solutions here.

                    FUNDING FROM THE PRIVATE SECTOR

    Can more be done in terms of private fundraising? Is that 
possible? How do you work a balance between what the Government 
provides and what you can do in the private sector? You have 
been very skillful at that, which is very much appreciated. My 
point of view is if we can get other people in the private 
sector to make these contributions and do it without 
stipulations and restrictions that are so onerous that they are 
not in the public interest, we shouldn't shy away from that, 
especially if we have someone like yourself who is good at 
doing that.
    Mr. Small. I agree with you. It would seem to me that the 
sort of implicit arrangement that has worked over the years 
between the private sector and the public sector is that the 
public sector takes care of the Smithsonian buildings and its 
base functions, the security and the security of the 
collections and the people who visit the Smithsonian and its 
staff. The private sector is there to handle new exhibits and 
new programs. That seems to be working well.
    The fact of the matter is that going out to the private 
sector and asking to fix windows, roofs, toilets, stairwells, 
and elevator shafts just doesn't work. They are not willing to 
give to buildings they see as government buildings for that. In 
the last three years, the Smithsonian has raised more money 
from the private sector than in the previous what we think of 
as 152 years. So we are getting hundreds and hundreds of 
millions of dollars from the private sector to do specific 
exhibits and specific programs but I don't think there is any 
chance that we will get the money from them to fix roofs and 
leaking windows.
    I am confident about continuing to raise money from the 
private sector but not for what the private sector views as the 
Government's responsibility.

            NATIONAL AIR AND SPACE MUSEUM UDVAR-HAZY CENTER

    Mr. Dicks. Could you give us a current status report on the 
Dulles facility?
    Mr. Small. I could but it would be better done by General 
Dailey, who is the Director of the National Air and Space 
Museum. He is here today, so I would like to ask him.
    Mr. Dicks. General, welcome.
    General Dailey. Thank you.
    For an orientation, this is the Washington-Dulles complex 
and this is our parcel of land, 176.2 acres in the southeast 
corner. This is Route 28 and Route 50. Drive down either one of 
these today and you can see the top of our building that is 
taking shape.
    This will be the entrance going into the facility. These 
air foils are what we call our Wall of Honor. We are using this 
as a fund-raising technique because for $100 or more you can 
get your name on there along with your biography and your 
picture in the National Archives. So we have a very high 
interest where people are putting their fathers, grandfathers, 
uncles or themselves onto this so they can be remembered by 
their grandchildren in the future. It shows it is going to 
really be a splendid park environment out there when we finish 
the facility.
    We are under contract for what we call Phase I which 
includes the entire aviation building, all of the amenities, 
the food court, the stores and the shops and simulators. We 
have an observation tower named after my predecessor, Admiral 
Don Engen, and a large format theater with a conference center 
on top of it. Most importantly, we have an education center 
which is the Claude Moore Education Center. We have a donation 
from the Claude Moore Foundation for that and this will give us 
a capability we don't have downtown, students in a semi-
controlled environment and to provide learning opportunities 
there but more importantly, will be tied into the Fairfax 
School system, the network, so that we have access to the 
entire country. Right now, 9 million students are on this 
network.
    We can bring in astronauts to present topics, have 
prearranged material already distributed to schools that have 
an interactive capability not only with schools around the 
country but students who are here visiting. We are very excited 
about that opportunity.
    Just last week, we had the Space Hangar added to this Phase 
I through a donation we got from the McDonnell family of 
McDonnell-Douglas fame. So the only thing remaining is this 
section here which includes the restoration hangar which is 
going to be a major point of interest because this is where the 
visitors will be able to observe the restoration of the 
aircraft taking place and then the Archives Library and dense 
storage.
    We are very encouraged by the progress we have made so far 
because all of this is under contract and will be open in 
December 2003. The public opening will take place on the 15th 
of December if you would like to put that on your calendar.
    This is what you will see if you walk in the front door. 
Youactually enter at the second level as you would at most 
airports. You see the Space Shuttle which will now be in the Space 
Hangar and then 200 aircraft displayed at three levels and observation 
levels that go up to 40 feet which we hope will give the visitor a 
feeling of soaring.
    In the back we will have the Shuttle Enterprise surrounded 
by 117 other space artifacts. This is the point at which 
Secretary Small says we need to have a resident cardiologist to 
handle the heart attacks.
    Mr. Small. It will be the biggest single open room in the 
world. The room has the capacity to take 88 Goodyear blimps 
inside of it. It is about three football fields long and 10 
stories high. There is no picture that can possibly give you 
the sense of the space involved here.
    General Dailey. These were taken the beginning of this 
month to show the status. The point is we have been very 
fortunate, Hensel Phelps is our contractor, and we are ahead of 
schedule and we are under cost. We had an agreement with them 
on value engineering. If they could identify a way to save 
money on this project, we would split it with them 45-55. They 
identified $1.7 million in savings immediately and they gave it 
all to us, so we could not have a better arrangement.
    The State of Virginia is in for $40 million, $34 million of 
which is in-kind support and that includes the 2,000 car 
parking lot, the access road that will come off Route 28, the 
utilities coming up to the site and then all of the walkways 
and a taxiway that will come off Runway 01 right. We call it a 
tow-way because it has a highway going across it but it will 
give us the ability to fly airplanes in and actually deliver 
them which is going to facilitate things dramatically.
    I mentioned, December 15, 2003. The funds we are requesting 
from the committee is the money required to prepare the 
collection and to set it up when we get it out there. It is the 
operating funds associated with it.
    All of the construction I have described will be privately 
funded. We need about $111 million more and we are going to get 
that. We haven't figured out exactly how but we have enough 
money in our contract to where we will have a spectacular 
facility when we open in December 2003.
    I would be glad to answer any questions you may have, sir.

           NATIONAL MUSEUM OF THE AMERICAN INDIAN-MALL MUSEUM

    Mr. Skeen. Mr. Wamp.
    Mr. Wamp. Thank you.
    Mr. Small, thank you for what you continue to do. I am kind 
of overwhelmed at the scope of all this myself. It is very, 
very exciting. I know you have challenges left and right.
    Shifting gears away from this incredible Dulles facility, 
we just heard that all of the capital improvements are 
privately funded and you are just coming to us for the move and 
setting it up, and the things you expect the taxpayer to pay 
for. What about the National Museum of the American Indian on 
the Mall and how is it funded? How much of that is private and 
how is that going?
    Mr. Small. The National Museum of the American Indian is 
coming along quite well. You can actually observe it from the 
Capitol. That is a project that in the end is going to take 
about $219 million overall to complete, not just for the 
construction but there is money in there for exhibits and such. 
The construction part is about two-thirds Federal and one-third 
private, roughly.
    There has been money that has been generously committed by 
this committee in the past and there is money in the 2003 
budget, $10 million more for the construction and we have 
another about $40 million to raise from the private sector in 
funding to complete it.
    We just had two commitments in the past year or so from the 
Mohegan Tribe and the Pequot Tribe of significant amounts, $10 
million commitments and we continue to work with the tribes 
that have special sources of income to get them behind this 
project. We are optimistic about getting that done.

                        SMITHSONIAN AFFILIATIONS

    Mr. Wamp. One of those 97 affiliates you referred to is the 
American Museum of Science and Energy in Oak Ridge, Tennessee. 
I am grateful for that accomplishment in the last 12 months. 
You talked about 142 million artifacts and assets. What is the 
percent of those that are actually on display in Smithsonian 
institutions and what is the percentage that is actually in 
storage waiting to be used? How does the affiliates program 
work in terms of revenue generation for the Smithsonian and how 
can we enhance that as you light up the grassroots across the 
country through the Affiliates Program. It has grown 400 
percent in the last couple of years, obviously it is fertile 
territory for the Smithsonian to reach out into every corner of 
our country but that is where the resources are going to have 
to be in order for us to ever provide the revenue stream for 
all of this incredible wonderment from history and science and 
everywhere. Tell us about that.
    Mr. Small. The percentage of the collections that is out on 
loan is infinitesimal. Of the 142 million objects, I would 
guess there is maybe on display not even a couple million and 
on loan, in the thousands. So it is a very small amount of the 
total.
    Remember the largest single number of items in the 
collection is made up of insects. There are 30 million 
different insects in the collection, millions of postage stamps 
and things like that, so that is the reason for thebig numbers. 
The largest percentage of the collection is natural history specimens.
    Nonetheless, we are getting all sorts of objects out to our 
affiliate museums. We charge them a very, very small amount to 
join the program, a few thousand dollars, and then all of the 
loans are free. They are long-term loans, they are meant to 
keep the objects with them for a time so they can build their 
exhibitions around them. They have to pay the cost they would 
if they owned the objects but some of these are very valuable 
and they simply haven't had to pay that cost.
    We are trying to raise the money to build the staffs to 
support all these affiliates because the vast preponderance of 
this is supported with private sector money. So you are right, 
a big challenge, as we grow the number of affiliates, is 
getting the private sector support to pay for the people we 
need to support the affiliates.

                         IMPACT OF SEPTEMBER 11

    Mr. Wamp. I wondered while I listened to your testimony 
about the fallout of September 11 with respect to your traffic. 
Have there been any good things that have come out of it? For 
instance, have we been able to do some spring cleaning while 
the people are not here? Are we able to restock, retool, 
anything while the traffic is low or is it all just bad news?
    Mr. Small. It is mostly all bad news. The only benefit has 
been that it has given a heightened degree of focus to 
security, so for getting the Smithsonian a public address 
system, we can make consistent announcements over loudspeakers, 
that is helpful to have. On average, it has been very harmful 
to the museums because of the drop in the businesses and drop 
in revenue for us.
    Mr. Wamp. At some point, I want to see the presentation on 
the Zoo, so I don't know if it is best for someone else to do 
that. I will yield and we will wait.
    Mr. Regula wants to do that. We will wait for Mr. Regula's 
appearance and I will wait eagerly.
    Mr. Skeen. Mr. Nethercutt.

                   Opening Remarks of Mr. Nethercutt

    Mr. Nethercutt. Welcome, we are pleased to have you here. 
Thanks for all your good work since you have been in this 
position.
    I want to take a moment to compliment your staff. Nell 
Payne did a fabulous job of trying to link a group called 
Spokane Scholars, a great group of people, to have a 
recognition event once a year. Mr. Pachter is coming out to 
speak and we are really pleased he is going to be there. I want 
to compliment you on not only his attendance but her help. She 
has been great.

           NATIONAL MUSEUM OF THE AMERICAN INDIAN-MALL MUSEUM

    With respect to the Museum of the American Indian, I know a 
while back there was a question that came up about some 
conflict with the architect. Is that resolved now and the 
design is all taken care of and everybody is happy?
    Mr. Small. Yes. All of that is resolved and the design 
phase is finished. The museum is being built.
    Mr. Nethercutt. Is there adequate collaboration with the 
American Indian community, people in the community who will 
appreciate the construction? Are they satisfied with the 
progress and development of the museum?
    Mr. Small. From everything I hear from Museum Director Rick 
West, who has been on the project for ten years and is Southern 
Cheyenne and Arapaho, a wonderful liaison with the Native 
community, I believe it is very strongly supported.
    Mr. Nethercutt. Will all the artifacts and the exhibit 
items that have heretofore been in storage be able to be 
displayed, much of them, many of them? What is the calculation? 
My sense was there was an awful lot of storage at different 
locations around the East Coast. Will they be able to be 
displayed adequately?
    Mr. Small. All of the objects would never be able to be 
displayed because this is the most magnificent collection of 
Native, if not ethnographic objects, in the entire history of 
the world and collected by one individual, approximately 
800,000 objects. The bulk of them are still in a warehouse in 
the Bronx, New York. They are being moved down here. There is 
further funding in this budget request to continue that move. 
They will be put into a magnificent storage facility in 
Suitland, Maryland which is already built, built on time, on 
budget and is a great place for scholars to go and examine the 
objects.
    Once again, as in the case of all museums, only a small 
percentage of the total collection will be on display.
    Mr. Nethercutt. I would urge you and your colleagues to 
think about perhaps making use of other museum facilities 
around the country. The Northwest Museum of Arts and Culture in 
my city of Spokane has a fabulous facility they just opened 
recently and would be a great recipient of some of those, 
perhaps on loan or on occasion to make sure more people get to 
see them as opposed to fewer.
    Mr. Small. I totally agree.

                          AFFILIATIONS PROGRAM

    Mr. Nethercutt. With respect to the 142 million objects, 
one of my questions was to see to what extent you are looking 
at placement of these objects that cannot be otherwise 
displayed here out in the rest of the country in the museum 
world. Is that on your schedule?
    Mr. Small. The whole idea of our Affiliations Program is to 
do just that. Frankly, the real reason for doing it is to get 
these objects out in front of the American people and to pick 
the ones that really merit the visitation by the American 
people and get them out there.
    Many of the objects represent biological or archeological 
specimens of interest to scholars but are not really objects 
you would put on display. I don't think we will ever get to the 
point where you could say that 70 percent of the collection is 
out there but I think many of the objects that are wonderful to 
see have to see the light of day. There are things that have 
been in boxes for over 100 years that really merit viewing by 
the American people. That is the idea of this program. We will 
continue to push for that.

                         SECURITY ENHANCEMENTS

    Mr. Nethercutt. I would ask if you are satisfied with the 
security enhancements that have occurred or will occur as a 
result of September 11. First of all, will they be adequate in 
the budget amount or perhaps the supplemental that is 
forthcoming? Second, will they be permanent and maybe you can 
address the question of whether you have had any experience 
thus far to the extent you would care to comment here, with any 
security questions or concerns you might have about terrorist 
attacks that might come to the museum?
    Mr. Small. I think we are making good progress and we are 
grateful to the Administration and Congress for the 
supplemental addition. We are learning now about what this 
heightened degree of security means, of the rather awful 
looking jersey barriers in front of the museums. Those have to 
ultimately be changed for something that will provide our 
visitors to Washington with a better looking experience.
    Things like having a loud speaker system will clearly addto 
the safety. What we really need to learn about is the use of things 
like x-ray machines and magnetometers in museums that get enormous 
visitation. The Holocaust Museum has always used x-ray machines and 
magnetometers. The Air and Space Museum hasn't. The attendance at the 
Air and Space Museum is almost five times more than the attendance at 
the Holocaust Museum.
    We are starting a test now on it. What will happen? Will we 
have lines all down the Mall to the Washington Monument? We 
need to learn more about the more conventional approaches to 
security and do what we have to do to make sure the museums are 
secure.
    Mr. Nethercutt. Is that part of your budget request for 
2003 or is that focused on the supplemental appropriation?
    Mr. Small. The test is funded with the FY 2002 
supplemental. We also are using the supplemental funds for 
security items such as temporary barriers, security cameras, 
fencing for the zoo, magnetometers and x-ray machines and 
security staff to man these items. Our FY 2003 request includes 
an increase to continue manning the magnetometers and x-ray 
machines and to purchase additional items such as permanent 
barriers.
    Mr. Nethercutt. You are studying that?
    Mr. Small. Yes.
    Mr. Skeen. Mr. Hinchey.

                     Opening Remarks of Mr. Hinchey

    Mr. Hinchey. Mr. Small, it is nice to see you. You have a 
very interesting job. In many ways, I envy you. I want to 
particularly congratulate you and your predecessors on the way 
the Museum of the American Indian is being handled. I eagerly 
anticipate going there myself and seeing that. I have been very 
much aware of the artifacts that have been held in New York and 
put together by, as you said, one individual over a long period 
of time. It is absolutely astonishing. It will be a great 
addition to the wonderful museums the Smithsonian encompasses 
and a great opportunity for the American people to understand 
this part of our culture.

                         CORPORATE SPONSORSHIP

    As I understand it, about 70 percent of the budget comes 
from public sources, correct? Thirty percent is coming from 
corporate sources generally?
    Mr. Small. More private philanthropy from individuals.
    Mr. Hinchey. Private philanthropy and individuals.
    Mr. Small. Then from the businesses of the Smithsonian and 
the endowment and the corporations.
    Mr. Hinchey. Can you break that down for me?
    Mr. Small. I would have to send it to you but the 
corporations are one of the smallest parts of it. The largest 
parts come from the endowment, the businesses and the 
individuals.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Hinchey. If the corporate part is the smallest part, 
they are certainly getting the biggest play recently, aren't 
they?
    Mr. Small. I would say critics of private philanthropy 
would tend to criticize corporations more than individuals.
    Mr. Hinchey. I think that is probably true but that wasn't 
my question. What I said to you was even if they are a smaller 
part of it, they are certainly getting the biggest play. Your 
answer wasn't an answer to that question but to a different 
question.
    Mr. Small. How do you mean the biggest play?
    Mr. Hinchey. They are getting the biggest attention. For 
example, you just renamed the Langley Theater. Langley was one 
of the great pioneers of American astrophysics and aviation, a 
man who contributed a great deal to the history of the country 
and whose name was very appropriately associated with the IMAX 
Theater at the Air and Space Museum. You have just recently 
changed that name. You have also made a big change with regard 
to General Motors.
    Frankly, just speaking as an individual citizen, not so 
much as a member of Congress, I really resent it. I deeply 
resent it. It seems to me what you are doing--and you didn't 
start this but recently you seem to be the biggest cheerleader 
for it--what we are experiencing is the crass commercialization 
of one of the most important aspects of American culture and 
history, the great demonstration of American history, the 
Smithsonian, a revered institution which represents in the eyes 
of many, many Americans, even those large numbers who have 
never been there, some of the best of what we do as a society.
    Increasingly we are finding even though corporations 
provide a fraction of the 30 percent, whatever that fraction 
may be, they are getting the biggest play. Their billboards are 
all over and, at the rate we are going, will increasingly 
dominate the Smithsonian.
    I think this is a bad thing. I think we are selling 
ourselves very, very cheaply indeed. I would hope it would 
stop. I would hope you would do something to stop it. I would 
hope this Congress would recognize its responsibility to fund 
not just the toilets, the paint jobs, the maintenance, and the 
upkeep, but to fund all of what goes on at the Smithsonian. 
Then we wouldn't have to stoop so low as to have others come in 
and sell out aspects of the Institution, not just to have their 
name put on the marquees but increasingly to have an influence 
on what kind of displays we promote and how those displays are 
promoted.
    This is very troubling and I would hope we would stop it. I 
wonder what your attitude is.

              SMITHSONIAN POLICY ON CORPORATE SPONSORSHIP

    Mr. Small. As I indicated in my remarks, this has been a 
source of debate in the Smithsonian since 1835 when the gift 
was first announced and came to Congress, one Congressman stood 
up and said, send the money back, ``otherwise every 
whippersnapper, vagabond in the world will send us his money to 
immortalize his name.''
    Mr. Hinchey. We are doing that out at Dulles now.
    Mr. Small. The way they immortalized his name was they set 
up the Smithsonian which he insisted on in his will. It has 
been a debate that has gone on as I said since the gift was 
first announced in the United States and it is a debate that 
takes place in America life. I respect that debate.
    I don't happen to agree with that point of view. I am one 
American out of 285 million. The regents of the Smithsonian 
provided in their policies a long time ago for the recognition 
of donors who are individual philanthropists and corporations. 
I don't believe billboards are being put up, I don't believe 
there is anything crass about how the name of the theater will 
be displayed or how the name of General Motors will be 
displayed.
    I think if Congress asked the Smithsonian to build a museum 
with private sector funds that is going to cost $311 million 
exclusively with private sector funds, it would be naive to 
think that could possibly be done without getting the support 
of the corporate sector and without using conventional American 
approaches to recognizing donors.
    I respect the point of view. I know it exists in American 
life. Our regents have put in policies that have served the 
Institution well and I fully support those policies and will 
continue to follow them.

                 PUBLIC POLICY ON CORPORATE SPONSORSHIP

    Mr. Hinchey. You are right. It was a direction from the 
Congress, an unfortunate direction to require that.
    One of the debates we have around here on an ongoing basis 
is the insidious effect that substantial amounts of money have 
upon public policy decisions that take place in the Congress. 
We passed the Campaign Finance Reform Bill which ostensibly 
directs itself to that problem and dealing with it in some 
small way.
    I think we are seeing the same kind of thing with regard to 
aspects of the Administration and the Smithsonian. I am very, 
very fearful that decisions will be made based upon donations 
of very large amounts of money. My experience is that very few 
people will give you something without some proviso attached to 
it. I think we are seeing that.
    We spend enormous amounts of money here in the budget. For 
example in the budget resolution we have today, the 
Administration is asking for $10 billion additional for defense 
spending undefined, without any definition whatsoever, over and 
above the very substantial amounts we have already provided for 
defense spending.
    A good portion of that $10 billion is going to go to some 
of the corporations that have their names on parts of the 
Smithsonian. Instead of us giving money to the Smithsonian in 
the way we ought to, the Congress funding the Smithsonian, 
keeping it up, eliminating the $1 billion backlog that we have, 
we do it in a round about way. We give money to major 
corporations, the major corporations launder that money, and 
then they send a bit of it over to you so they can get their 
name up on some of the billboards and marquees of the 
Smithsonian. It is a very perverse way of doing business.
    I don't mean to harangue about it particularly, although 
that is exactly what I am doing. This actually started before 
your watch but you are the guy who is there now and you are the 
guy who has done a lot to enhance and encourage this practice. 
On some level, I don't even blame you for that because you have 
to run the Institution, you have to get money from some place. 
Congress says to build this facility out here and to get the 
money for it all from private sources. The public sources, 
because we don't want to get any money from public sources, 
want it all to be private. I think that was a bad decision.
    Nevertheless, you find yourself in a place where you have 
to administer this kind of thing. Others have recently made 
these kinds of decisions before you, and you are a guy with 
great energy, vigor, and intellect. So you rush right in there 
and try to do it even better than your predecessors. God love 
you, you certainly are.
    My point is I wish you would slow it down. I wish we would 
stop this. I really think we are making some serious mistakes 
here and I think we are degrading an institution which means an 
awful lot to a lot of people and we are doing it, in my words, 
in a very crass, commercial kind of way. I just mention this to 
you in the hope that maybe tonight when you go to sleep you 
might have a second thought about it, or maybe next week when 
you wake up you might say to yourself, I wonder if we are doing 
the right thing here. I hope I might at least put a small 
question in your mind and the minds of others who are 
stimulating you, as the Secretary, to carry on this way.
    Mr. Skeen. Mr. Regula.
    Mr. Regula. What would you think of charging fees in order 
to generate the revenues we need?
    Mr. Hinchey. I don't think so, my former chairman. My view 
is that we have an awful lot of money around and we are 
spending a lot of it wastefully. One of the nice things we 
could do, and a very constructive thing, is to provide for a 
national museum in an appropriate way by spending a tiny, tiny 
fraction of our budget that would require to make it first 
class, first grade so we wouldn't have to be selling ourselves 
on the open market. That is what I think we ought to do.

    NATIONAL ACADEMY OF PUBLIC ADMINISTRATION REPORT ON BACKLOGGED 
                              MAINTENANCE

    Mr. Regula. It is an interesting point which leads me to 
the question of the NAPA report on backlogged maintenance. You 
spent $200 million but the NAPA report points out there is 
still a vast amount of maintenance that needs to be done. What 
is the status of all that and how much would you need to catch 
up in say ten years?
    Mr. Small. First, I want to thank this committee for 
recommending the National Academy of Public Administration and 
asking that we have the report. The report turned out to be 
very, very useful. It did confirm that the $200 million this 
committee authorized and appropriated to the Smithsonian was 
well spent but it said just wasn't enough and over the course 
of this decade $1.5 billion would be needed to fix more than 
half of the Smithsonian's 400 buildings in substandard 
condition and some of them awful.
    We are implementing all of the NAPA report. NAPA basically 
said the Smithsonian just hadn't been focusing enough attention 
on maintenance, didn't have an organization put together that 
consolidated the responsibility for maintenance, didn't have 
the computer systems to track projects properly.
    Essentially, we have taken all their recommendations 
including one that was informally made that has us with a new 
Director of Facilities, William Brubaker, who is here today and 
who was Director of Facilities for NASA. He is completely 
professionalizing the function and while it is not easy and it 
is not going to take overnight, we are moving ahead 
energetically to focus on maintenance, to focus on reliability 
centered maintenance so that we catch problems before they 
occur and make the case to get all the resources we can because 
$1.5 billion of deferred maintenance is a big, big amount of 
money.
    It is 33 million visits to these museums in the Capital and 
people should not be in awe of falling paint and plaster; they 
should be in awe of seeing the Star-Spangled Banner or the desk 
on which Thomas Jefferson wrote the Declaration of 
Independence.
    Mr. Regula. I think part of the reason is there has never 
been a plan. Are you developing a plan for cyclical maintenance 
so that we get from A to B over a period of time recognizing 
the magnitude of the task?
    Mr. Small. Yes, sir. It is not enough just to fix it once; 
we have to fix it forever, so that we have in place a 
maintenance program so this can never happen again. We are 
focused 100 percent on that.
    Mr. Regula. One of my staff went to Panama and was 
extremely impressed with the work being done there. I have been 
a bit of a skeptic so it was nice to get that kind of report.
    Mr. Small. A wonderful operation.

                        NATIONAL ZOOLOGICAL PARK

    Mr. Regula. I would like to discuss the Zoo a little bit 
which is part of your portfolio. I see Ms. Spelman is here.
    Mr. Small. Dr. Spelman is here and I would defer to her.
    Ms. Spelman. I am very honored to be here. I have a lot of 
visuals for you today but you have to come out and see the real 
thing. Everything at the Zoo is living and that is oneof our 
challenges because if we have an aging facility, which we do, we can't 
put those animals on the shelf and dust them off next year when we are 
ready to exhibit them.
    I have a couple of photos. This shows Tian Tian, the giant 
panda, sleeping on his log. I have this photo to start because 
it is the people in the photo, not just the animal that matter. 
The National Zoo is a revered place, the jewel of Rock Creek 
Park. It is known worldwide for the highest standard. It is 
really about people and children. We view it as a multifaceted 
experience, you are learning when you are there, you are having 
a good time, the staff is also working to study and help 
protect the species we have on display.
    We have many great areas at the Zoo. When you walk the 
park--it was established in the early 1890s--it is beautifully 
planted, it is a park-like setting. In many ways you don't 
actually notice what is a real issue for us, a major need to 
renovate and renew the old parts of the Zoo. We have a lot of 
structures actually between 70 and 100 years old.

                     BACKLOG MAINTENANCE AT THE ZOO

    Mr. Regula. Would you be in the backlogged maintenance 
problem we just discussed?
    Ms. Spelman. That is correct. I know historically our Zoo 
directors have brought creatures here but the best I could do 
was a Steif stuffed sloth bear. This photo is Francois, our 
male sloth bear. Our sloth bears are stuck in the 1890s. This 
is when this was built. It has been upgraded, but this is a 
bear that, if you gave it a place to be like our giant pandas 
have, would be active, engaging, people would be fascinated by 
it. These bears are from Sri Lanka. They are ant-eating bears, 
with long claws for breaking up termite mounds. Their nose 
basically acts like a vacuum.
    This is a stuffed bear. When it is sold--these bears are 
about $500--the proceeds do come to the Smithsonian National 
Zoo. So it is a unique species and we have many others at the 
Zoo. We need to step up the pace at which we get them into 
modern exhibits.
    This map--failure map--sometimes can be overwhelming. 
Everything in red and orange is essentially in trouble. We have 
graded, our facilities as either failing in red or poor in 
orange. At the Zoo, we have 29 major exhibit areas and 15 are 
in the failing or poor category.
    We have two things in process, the renovation of our Mane 
Restaurant, actually the Lion's ``Mane'', that is happening now 
and we have a new interactive exhibit for kids called Kids' 
Farm which is going to be the first place in the Zoo where 
children can really touch an animal, get close to a cow, a 
goat, a chicken and understand where their food comes from, 
understand you have to care for the animals on a farm.
    These are blue in your map. Blue, it says in process, but 
also would be considered excellent. That is the goal. To keep 
the yellow and green in the yellow and green good to fair 
category, there is also a maintenance need for the future.
    We have looked at the entire Zoo. This started about two 
years ago. We really tried to figure out in what order can we 
renew the Zoo, how can we do it without disrupting traffic to 
the Zoo, how can we afford it and how can we not just renovate 
old places, but really take the Zoo and make it world class in 
every way.
    One goal is to address the oldest areas of the Zoo. The 
bears are in the 1890s, our elephants are in the 1930s. This is 
Shanthi, our female elephant, and Kandula, her calf, about two 
months old here. He is now almost 500 pounds, growing rapidly. 
Look at the picture. This is the standard of housing elephants 
in the 1930s, fairly small space. Shanthi is reaching up into 
the air vent there, not a lot of room between her head and the 
ceiling, obviously a bit of water drainage issue here.
    Perhaps the most important thing is Kandula. Once he is 
full grown, Shanthi weighs about 10,000 pounds, Kandula is 
going to weight 12,000 pounds, be much taller than she is, so 
there is no way we can keep a male bull elephant in our current 
facility.
    I am showing you the inside of the elephant house. Actually 
the outside yards for elephants are great. We have a great 
elephant program but we only have three elephants and we have 
three unrelated females who actually don't know how to be 
elephants. We cannot put our two other females with this mother 
and her calf because if you are an elephant and you don't grow 
up with other elephants with you so you know how to recognize a 
youngster, you see this little guy and want to smash it.
    Coupled with that, there are only 30,000 Asian elephants 
left on earth, mostly in Burma and Nepal; only 30 breeding age 
female Asian elephants in all of captivity and the problem with 
those is they are middle aged, mid-20s, have not been bred, 
have not had a calf, they are not with a male.
    The Zoo community right now is saying if you want to have 
elephants, you have to make a commitment to be breeding the 
Asian elephant because we are going to lose them. Breeding them 
means you have to have a herd. For us a herd means maybe three 
females and three youngsters and a male. Part of our renewal 
plan is to trail blaze what an urban zoo should be for 
elephants which is more elephants.

                 NATIONAL ZOOLOGICAL PARK RENEWAL PLAN

    My next point is we do have a plan. You have some color 
coded maps. These bears are from Sri Lanka and the elephants 
are from Asia. We actually have already funded a new yard for 
the giant pandas. We said why not tackle the biggest red area 
up here and do what we are calling Asia Trail. That is the 
firstpart of the renewal plan. The first five years is to deal 
with the bear and the elephant areas.
    If you go to the red, the Australia Building is actually a 
condemned building, structurally unsound and has to come down 
within three years. We will move our kangaroos and keep them in 
the Zoo but the building has to go away.
    Basically this is the part of the Zoo when you come off 
Connecticut Avenue you don't see an animal when you first come 
in the Zoo. It is beautiful but it makes you ask, are we in the 
Zoo. So the idea is for us to really brighten the top of the 
Zoo. It is a pretty, forested area there to the right, great 
for the sloth bears, and there are some cages there, but there 
are no animals. The idea is to give that area completely to the 
elephants.
    That is what the renewal plan shows you in a two phase 
approach. We are calling it Asia Trail, Asia I gets the sloth 
bears a new home, builds a new trail down to a panda enclosure, 
brings the creatures in we already have. Pink is essentially 
all elephants.
    If we take the elephants out of the large mammal house, 
which most zoos built in the early 1900s, most zoos have had to 
face this and we are not the only one. Let's move the elephants 
out, give people a sense of where they are on earth and this 
also tackles the fact we have mostly inaccessible pathways so 
the idea is to make this handicapped accessible as well as 
right at the beginning of the Zoo.
    That leaves us with room in the existing elephant house to 
turn that into an Africa theme. In our current large mammal 
house, we have elephants, Asian, rhinos which are Asian but 
then we have giraffes and hippos which are from Africa. We are 
not really giving people a sense of where they are on earth. 
That is essentially a standard way zoos are looking at teaching 
people about the rest of the world.
    How is this funded and what will be the cost? This is the 
rock work around the sea lion pool. We can Band-aid this and we 
are band-aiding this as this falls apart. If you look at the 
areas in red, it is a huge effort. We are going to deal with 
this area and the sloth bears in the first five years and, then 
we have to be able to hit the sea lion area.
    The second five years is the sea lion area and everything 
in orange which are the three major houses, the bird house, and 
so forth.

                 COST OF THE ZOO FIVE-YEAR RENEWAL PLAN

    How much is it going to cost and how are we going to do 
this? Going to the color chart which we call the five year 
renewal plan, we already have in this current fiscal year, the 
beginnings of renewal money going to the design and planning of 
both Asia I and Asia II.
    In the 2003 budget, we also have a significant amount of 
money going into the renewal plan. In total, over these five 
years, our estimate is about $130 million to do these major 
exhibits and if you look at the amount of red, this is a big 
chunk of the Zoo. It is $130 million to do the renewal plan 
which we expect to fund-raise about $30 million and we believe 
we can do that. Most zoos have older areas and have had to 
attempt major capital campaigns. That is a reasonable amount 
for us to try to fund-raise.
    The other important point is to keep the yellow and green, 
the fair and the good going--where the orangutans are, our 
cheetah area--we estimate about $10 million a year as part of 
the annual maintenance. The total need over five years is about 
$180 million of which $30 million will be privately fund-
raised.

              NATIONAL ZOOLOGICAL PARK--IMPROVED EXHIBITS

    It is ambitious but it is also extremely exciting. We are 
trying to raise the profile of the Zoo and we are not just 
going to renovate. This drawing is the concept for sloth bears, 
some yards, some water, some rocks and the real idea is to get 
people really close to these bears. They actually put their 
nose into the termite mound and their nose flaps close off, 
they have modified incisors so they can make a tube, the tag on 
this stuffed animal says part bear, part sloth and part vacuum. 
It will be sort of a demonstration, teaching area. We want to 
focus on what we can do well and make the most of the pretty 
face that is the Zoo. We are not going to change the landscape 
and try to make this into Sri Lanka.
    What we want to do is say what do these bears do and are we 
going to study these bears, similar to giant pandas, what are 
their preferences for food, what are the main obstacles to them 
making it in the wild, how can we make that interactive and 
educational.
    We want to measure the force with which they can inhale 
their food. When you come visit, we often feed these bears 
through a barrier but we will give them a jar of honey, a 
plastic half gallon of honey and they inhale that and create an 
incredible vacuum force in the honey jar.
    Maybe in the exhibit we can get these bears to inhale their 
food, measure it and maybe there is a technology component 
here, so the keeper has been teaching the bears to inhale. He 
has a piece of pvc pipe, we do a lot of training, they learn 
how to inhale the grape in a moment but now we have a new 
problem, they are blowing it back out at him. That is going to 
be his challenge.
    The last board shows you with respect to elephants, again 
we are not going to try to create Burma in our exhibit space. 
We want to have a big space, kind of calling it the elephant 
track or elephant trail, so we will have whatever group of 
elephants and these will be created over time. Essentially, we 
will breed elephants. It is going to take seven or eight years 
to come up with seven or eight elephants. Kandula will be fine 
in our current housing until he is a teenager, so we have time.
    The idea is to have elephants of different ages, have a 
bull elephant nearby. This elephant has turned on a shower for 
herself and we are very interested in the interaction between 
elephants to elephants and elephants to people. If you think 
about the biggest issue facing conservation worldwide, it is 
the interaction between people and animals. One can say it is a 
conflict but one can also say there are solutions if you 
understand the interaction.
    We are thinking of giving these elephants showers that they 
can turn on or off for people on a hot day and studying what 
makes that elephant turn on or off that shower. People say 
elephants are smart and we really haven't studied that.
    The idea is as we renew the Zoo, we also want to ask some 
questions, find some answers, make it interactive and make it 
fun.

                         VISITATION AT THE ZOO

    Mr. Regula. Your enthusiasm is wonderful. I will say having 
visited a number of times, you have done a great job out there. 
I think the public response is evidence of that. How many 
visitors do you get a year?
    Ms. Spelman. We had just under 3 million visitors last 
year. I have to say the Zoo survived the fall a bit better. We 
were lucky, we had all these baby animals born, not on purpose, 
but between giraffe, tiger, gorilla and the elephants, we had a 
great year and our visitation has been okay, in fact, pretty 
high. It is a great place.
    Mr. Regula. You are not under stress so when we get 
visitors, I can send them out there. I don't know how much 
security you have but it is not as much as we have downtown.
    Ms. Spelman. No. One of the benefits of the security 
provision is that we actually don't have a complete, proper 
perimeter fence. I can scale that fence. One of the hopes is we 
can really look at how to do it properly but also visually be 
appealing.

                          VETERINARY SERVICES

    Mr. Regula. I noticed you made the Wall Street Journal 
yesterday. ``The Daily Grind: Veterinary dentist Charles 
Williams, 59 years old, makes house calls at the National Zoo 
in Washington D.C. He normally charges about $200 to clean a 
pet dog's teeth for its owner. His Zoo visits are free, but 
hardly painless. Hazards include bad breath. Extracting a 
tapir's tooth once, he was sprayed with urine by her 
territorial mate''--that is a new approach. [Laughter.]
    ``A chisel and sledgehammer failed to help him remove an 
elephant's loose tooth. He finally gave her 6 x 6 logs to 
teethe on and she worked it out by herself.'' I know you are a 
veterinarian so I guess you had to give him some advice and 
counsel on how to handle this.
    Ms. Spelman. It doesn't really matter whether you are a 
veterinarian or the curator, nothing ever happens twice and you 
have to always kind of wing it. He is an excellent dentist. In 
fact, he has done root canals on both of Francois' teeth and a 
baby tiger busted a baby tooth and he came out and fixed it. We 
are very lucky. We have about 30 consultants who help us, both 
veterinary and human. It is a wonderful experience for all.

                  NATIONAL ZOOLOGICAL PARK KIDS' FARM

    Mr. Regula. A brief comment on the Kids' Farm. You talk 
about animals interacting with humans. I think one of the 
important things is for kids at least they know where food 
comes from.
    Ms. Spelman. That is right. The whole orientation is for 4 
to 8 year olds and it is interactive. You can touch a cow, go 
in with the goats, we will have pygmy donkeys because horses 
tend to bite little kids, some chickens and it will be staffed 
by volunteers and our staff. So when you go in, it will be 
about learning to brush the goat or feed the goat, not just 
look at the goat.
    Secondly, there is a whole playground--we don't have 
anything like this for little kids at the Zoo--and the concept 
is based on a piece of cheese pizza because every part of your 
pizza comes from a farm, whether the box, the pepperoni or the 
cheese, there is a cheese slide and it will be very fun at the 
lower level of the Zoo, next to the parking lot. We think it 
will be fun. That is on track to begin construction this 
spring. We hope it will take one year and open sometime in 
2003, spring, early summer.
    Mr. Regula. I will volunteer to teach your staff how to 
milk the cow.

             NATIONAL ZOOLOGICAL PARK CORPORATE SPONSORSHIP

    I was interested in Mr. Hinchey's comment on 
commercialization which is debatable but I know with the pandas 
you worked with a film company and they have spent a lot of 
money for telecasting the story of the pandas. How has your 
arrangement worked out with them?
    Ms. Spelman. It is certainly a new era for the Zoo to have 
corporate relationships. We have two excellent ones, both 
Animal Planet and Fuji Film have been wonderful and supportive 
of our development team and how we want to work with them.
    With Animal Plant, we have seven hours of programming that 
has aired called Total Zoo. It is very funny. I can be in the 
supermarket and someone will come up and say I saw you on 
Animal Planet. It has really raised the awareness of what the 
National Zoo is all about. The series called Total Zoo has been 
filmed at two other zoos, the Los Angeles Zoo and the San Diego 
Zoo, and the ratings are actually higher for the National Zoo 
series.
    When you watch them, our series is richer, there is more 
going on behind the scenes. You get the sense there is science, 
education, that we are in Washington. It has been good for us. 
I think it has been very beneficial, but not without a lot of 
work. We have teams and we work carefully to make sure the 
relationship is the one we want to strike.
    Mr. Regula. I have a lot more questions but time is up. You 
do a wonderful job. Thank you.

                       ISSUE OF COMMERCIALIZATION

    Mr. Skeen. Mr. Wamp.
    Mr. Wamp. Let me give a word of commentary in a gentle way 
about this issue of commercialization. Even the Holy Scripture 
says ``to whomsoever much is given, much is also required.'' We 
should encourage people who benefit from our free enterprise 
system and make a profit to give it back to worthy causes. I 
think sometimes it is easy to divide by talking about people 
who may be greedy or self interested but that is not the rule. 
That is the exception.
    People around the world want what America has in large part 
because of our free enterprise system. I am about sick and 
tired of it being run over.
    The person who I respect the most in the last 250 years in 
this country was Teddy Roosevelt who set aside lands and did 
what was right for our natural resources and he also went after 
corporate and union manipulation. He would be encouraged for 
Chiquita to sponsor an ape exhibit, he would be encouraged by 
that because it says all the right things.
    Maybe there are cases where someone has bad motives but 
that is the way it is in life. The overall majority of people 
who are interested here are doing the right thing and we should 
encourage that and never discourage that.

                          FUNDING FOR RESEARCH

    In terms of cost and benefits, I understand the 
Astrophysical Observatory, the Environmental Research Center 
and the Tropical Research Institute are some of your most 
successful programs, yet the budget request levels them out. Is 
that because you didn't ask for money because you didn't feel 
you could because of the other needs and can you speak to that 
issue?
    Mr. Small. It is an issue of essentially balancing 
priorities. These are three of the great scientific 
institutions of the United States of America. They have 
fabulous people, do a great job. One of the things those three 
particular units of the Smithsonian are terrific at is getting 
competitive grants. They are the three that win the most money 
consistently, so we have had to balance out our various needs.
    When you have all those red spots over there that indicate 
you have buildings that are falling down and you have this 
tremendous backlog of maintenance, we had to deal with our 
priorities. That doesn't mean we don't think the three units 
you mentioned aren't worthy of continued strong Federal 
support. They demonstrate how good they are by how effective 
they are competing for competitive money. That is where they 
have been able to raise tremendous resources, particularly the 
Astrophysical Observatory.
    On average, those groups get over three times more from 
competitive grants they win than they get from direct Federal 
appropriations through the Smithsonian.
    Mr. Wamp. Thank you.

             CORPORATE SPONSORSHIP AND NAMING OPPORTUNITIES

    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. I appreciate Mr. Hinchey's view and many 
people I am sure share it. I think it should be less a matter 
of corporate structure or organization and more a matter of 
taste. That is the question. There is no royalty given back to 
the corporations that might be supporting this Dulles facility. 
Is it any less commercial if you put an individual's name on a 
stadium? We have Martin Stadium out in Washington State 
University, my alma mater. Nobody complains about that. It was 
a big gift and helpful to the university.
    My view is to the extent that the trustees and the regents 
have a hard look at this and don't have flashing neon signs out 
and charging an admission that goes to the benefactor, I don't 
have a problem with it. These are American corporations by and 
large, made up of Americans who have a charitable purpose, the 
organization has a charitable purpose, and it is doing good 
public work in terms of giving more kids or human beings a 
chance to experience that which the Smithsonian is so proud of.
    I know perceptions differ but I think it is a matter of 
taste and how you handle it. It sounds to me like you are doing 
it well.
    Let me ask a question about the issue of the Lewis and 
Clark Bicentennial coming up in my part of the country. Is the 
Smithsonian doing anything in particular to commemorate that 
anniversary and the great traffic that will come through the 
Lewis and Clark Trail and come out to the Lewiston and 
Clarkston area of Washington State, Idaho and points west.
    Mr. Small. If I am not mistaken, there is a coordinating 
group that has been set up here in Washington and we are 
participating in that. We have some wonderful objects. We have 
the Lewis and Clark compass, so that is on exhibit. If there is 
any way we can be helpful, we would want to be in that whole 
process.
    Mr. Skeen. Mr. Regula.
    Mr. Regula. Speaking of good taste, and I think Mr. 
Nethercutt has a good point there, and I am sure Mr. Hinchey 
would agree, part of it is how things are handled. I think in 
the case of the Zoo, it has been done in good taste in terms of 
the Animal Plant and the film people. They have done it 
probably as it should be done where you get some commercial 
involvement.
    Mr. Skeen. Mr. Hinchey.
    Mr. Hinchey. Unfortunately, because of the attention my 
remarks have gotten, I have to return to my criticism. I thank 
my colleagues very much for reacting to it. I thinkyour 
reaction has been fair and reasonable. We disagree. We just have a 
different point of view on this particular subject.
    I think you are absolutely right, it is a matter of taste. 
With that in mind, I would like to read a couple of paragraphs 
into the record from the Washington Post, which quotes a letter 
that was written to Chief Justice Rehnquist, the Chancellor of 
the Smithsonian's Board of Regents. The letter, in part, says 
this, ``The Secretary of the Smithsonian Institution, 
criticized for leading the museum into a new era of 
commercialization and corporate sponsorship, was attacked by a 
group of 170 scholars, authors and academics yesterday. In an 
open letter to the Chief Justice, the group contended that the 
leadership of the Smithsonian was unwilling or unable to carry 
out the mission of the Smithsonian or to safeguard its 
integrity. The letter signed by scholars from the Nation's top 
universities, authors and at least one former director of a 
major Smithsonian museum faulted the leadership for allowing 
corporate and individual sponsors to have what the letter 
argued was too much say in the content of exhibitions they 
sponsored and for allowing corporations to place their logos on 
Smithsonian buildings, exhibition halls and other spaces. If 
this is permitted to continue, the Smithsonian will become much 
like a shopping mall, with virtually every inch devoted to the 
promotion of a corporation or its products.''
    Mr. Nethercutt. Would the gentleman yield for a question?
    Mr. Hinchey. Absolutely.
    Mr. Nethercutt. Is your objection that it is a corporation 
or would you have the same objections if it were an individual 
who through good intentions, charitable intentions gave $100 
million to the Smithsonian and would you want there to be no 
name associated with paying for that exhibit? Is it just 
corporations or is it the concept of having any outside money 
go to assist this institution?

                    COMMERCIALIZATION OF SMITHSONIAN

    Mr. Hinchey. Mr. Nethercutt, my objection is, as I 
indicated initially, what I regard, and what apparently 170 
scholars, authors, academics from the top universities around 
the country including one former administrator regard, as the 
crass commercialization of the Smithsonian.
    You asked me to yield, I did so. You asked me a question 
and now I am responding to the question. That is the way it 
works here.
    My answer to you is that I object to the crass 
commercialization of the Smithsonian. I don't object to 
corporations, I think corporations are good for the country, I 
think by and large they do a lot of very good work. I am happy 
for them and I think they do very well. I support them in a 
great many ways.
    What I do object to is the Langley Theater, which paid 
tribute to an important person in both American and aviation 
history, being changed. I object to that name being taken off. 
I think we lose something by that. I think we lose the 
connection with aviation history in America and when we put the 
name of a corporation, or some other name, on it that has 
nothing whatsoever to do with the history of aviation or other 
context, I think it is a mistake. I think we do lose something 
by that. I think more and more throughout the Smithsonian, Fuji 
Film, McDonald's, a host of those kinds of billboards in an 
institution like this is frankly offensive. That is what I 
object to. That is what 170 other scholars, academics, authors 
and leaders in this field apparently object to as well.
    Mr. Small that is my point. I didn't think I would have to 
make it again but since what I said elicited comments from 
every one of my colleagues on the panel, I felt I had to 
respond to what they said.
    Mr. Small. I understand. That particular letter was 
orchestrated by an organization that is chaired by Ralph Nader. 
It is not surprising to me that Ralph Nader isn't fond of 
General Motors.
    Mr. Hinchey. I am not very fond of them these days myself.
    Mr. Small. It is his organization that put that group 
together.
    As I said before, Congressman, I respect the point of view. 
It is something well within the range of opinion Americans have 
had on the Smithsonian and our regents have chosen the 
direction and I am totally supportive of that direction. We all 
have the right to an opinion in this country and I fully 
respect it.
    Mr. Hinchey. Absolutely and that is what I am trying to do, 
voice an opinion which was not being expressed here but which 
nevertheless reflects the opinion of a large number of 
Americans. This is reflected in that letter you referred to, as 
well as in the editorials in the Washington Post, the New York 
Times, and a great many other newspapers around the country.

                           SCIENCE COMMISSION

    Mr. Skeen. The fiscal year 2002 appropriations bill 
contained a directive to form a Science Commission to advise 
the Smithsonian on current and future scientific research 
activities. What is the current status of the Commission's 
comprehensive review?
    Mr. Small. The Science Commission was formed of eminent 
scientists from all over the country, some from inside the 
Smithsonian but the larger number outside, an excellent group 
of people. They have had several meetings. At the end of each 
meeting, they have had a press conference to announce their 
progress so far.
    They have just finished visiting virtually all the 
scientific research facilities of the Smithsonian in smaller 
groups. They have already had one session that their executive 
group, two vice chairs and the chair, had with the Board of 
Regents to brief them on their findings to date and they are 
currently working on the preparation of some interim findings.
    They met with me several times, I have had lunch with them 
several times so there is good communication going on. They are 
now working on establishing communication links with the new 
groups to be formed by the National Academy of Sciences and the 
National Academy of Public Administration.
    Mr. Skeen. When are they expected to have the finalized 
recommendations?
    Mr. Small. So far, they are continuing to talk about the 
fall. They recognize with the two new groups being formed, it 
would be good to speed up and they are contemplating how to do 
that.
    Mr. Skeen. Mr. Dicks.
    Mr. Dicks. I am sorry I had to go back and forth between 
here and the Defense Subcommittee but it is a wonderful world 
and one we live in.
    This committee has been very concerned about the priority 
for funding of Et Cetera, Et Cetera. Last December, Science 
Magazine observed in a major article that ``Research at the 
Smithsonian has been squeezed for the last 20 years as the 
institution has struggled with every expanding needs for 
renovation and construction'' as we have discussed.
    How do you feel about the science part of the budget? Has 
this been held back because of these other competing 
considerations?
    Mr. Small. Yes. What has happened over the years is that as 
the Smithsonian expanded programmatically, chose to do new 
things, there was less money available for other things. So if 
you look at the research functions throughout the Smithsonian, 
there are fewer people doing it with federally appropriated 
dollars than there were years ago because of the spread into 
other activities.
    It wasn't, however, because of taking care of the physical 
buildings. That was also neglected.

              PROPOSED TRANSFER OF SCIENCE PROGRAMS TO NSF

    Mr. Dicks. Let me ask, apparently OMB had a suggestion that 
a number of science programs at the Smithsonian be transferred 
to the NSF including your Astrophysics Program. I don't 
necessarily support this proposal but given demands on the 
Institution, I think we have to consider every possibility with 
an open mind.
    In the case of this transfer proposal, staff tells me the 
NSF astronomy and research physics budgets are each about $200 
million per year. This includes $84 million for three NSF 
astronomy centers which appear very similar to your program.
    Staff also tells me in addition to operating costs of over 
$200 million for its astronomy program, the NSF is in the sixth 
year of a $376 million program to build new telescopes.
    Tell the subcommittee why transferring your Astrophysics 
Program to NSF is a bad idea or if it is a bad idea? Maybe it 
isn't.
    Mr. Small. It is an idea that was a total surprise to us. 
It had never been suggested to us before, we checked with the 
National Science Foundation and never been suggested to them 
before. We think the approach that has been adopted now to have 
the National Academy of Public Administration and the National 
Academy of Sciences take a look at the competitiveness of 
Smithsonian science and to see if such ideas make sense is 
reasonable.
    The Smithsonian Astrophysical Observatory has been in place 
in the Smithsonian since 1890, it is arguably the most 
prestigious center for the study of astrophysics in the world 
and is extremely competitive at getting scientific grant money. 
It is one of the biggest recipients of grant money from NASA 
alone.
    We know of no problem with it in the Smithsonian. We know 
of no problem with its reputation in the world of science and 
we think it does a great job. This was surprising to us.
    Mr. Dicks. It might not save any money either.
    Mr. Small. Totally correct.
    Mr. Dicks. Because you are going to keep both programs 
going. I assume the reason OMB comes up with this is they think 
if you combine the two programs, you could reduce some of the 
overall cost?
    Mr. Small. I honestly have no idea.
    Mr. Dicks. Did they ever show you any plan or anything of 
that nature? This was just an idea?
    Mr. Small. The Administration has never discussed it with 
me personally.

                 HIRING FREEZE AND REALLOCATION OF FTES

    Mr. Dicks. What about staff, did we get the FTEs? I want to 
ask a few questions about your staffing situation. In your 
statement you discuss $12,795,000 of administrative reductions 
which will partially be addressed by a hiring freeze from 2002-
2003. At the same time a justification shows an increase of 200 
FTEs in 2002 and 304 FTEs in 2003, about a 12 percent increase 
in staff over two years. About half of these new FTEs relate to 
security but the budget chart also shows increases throughout 
the Smithsonian system.
    How do you explain the requirements for a hiring freeze 
when budgeted FTEs are increasing at a dramatic pace?
    Mr. Small. We have tried to meet the Administration's top 
line request, a suggested budget amount for us, recognizing the 
stresses from the country being in a war abroad and a need to 
focus on security at home and a hiring freeze is one way we are 
considering to reduce expenditures to reduce our budget 
constraint. At the same time, we are trying to honor the wishes 
that Congress has expressed to us over the years.
    For example, when you look at the request for increased 
FTEs, they come from greater security, that you indicated is 
half the amount, they come from the need to staff up these two 
new congressionally mandated museums, they come from the need 
for more personnel to handle the information technology to deal 
with the recommendations of the National Academy of Public 
Administration's report on facilities maintenance and they come 
from the need for more people to handle the maintenance issues 
on facilities.
    Mr. Dicks. So is it right to assume we really don't have a 
hiring freeze because we are hiring people?
    Mr. Small. The fact is this conceivably is about the 
reallocation of people. If we want to do what we have said we 
want to do, we have to stop people from doing some things so 
that others can do other things. We haven't figured out how to 
do that yet. We need to work with this committee and other 
committees that have oversight.
    Mr. Dicks. So you have, in essence, a partial hiring freeze 
where some categories you are not hiring people but in others 
because of Administration priorities, you are adding people?
    Mr. Small. That is correct. This is a reallocation of the 
resources of the Smithsonian and it may end up, in working with 
Congress, that we won't have enough money to do all these 
things and we will have to cut certain things. That, we need to 
work out.
    Mr. Dicks. Mr. Chairman, I don't have any further 
questions.
    Mr. Skeen. On that note, Mr. Secretary, we thank you for 
your testimony. It has been a very good hearing, we aired a 
number of issues and we will have a number of additional 
questions that will be submitted for the record.
    This hearing is adjourned.
    [Questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Wednesday, March 6, 2002.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

EILEEN B. MASON, ACTING CHAIRMAN AND SENIOR DEPUTY CHAIRMAN, NATIONAL 
    ENDOWMENT FOR THE ARTS

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Let us get on with our hearing for the National 
Endowment for the Arts. I would like to welcome the Acting 
Chairman, Eileen Mason.
    Once again, I encourage the witnesses and the members to be 
brief and to the point.
    We are interested in how NEA has developed since reforms 
were established and we want you to try to reach more of the 
country. I know some of your funding has been very helpful to 
New Mexico and other rural areas. We want to hear how the NEA 
will change with the new Administration.
    Mr. Dicks.

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    I want to extend a warm welcome and special thanks to Ms. 
Mason for coming before the subcommittee today in her position 
as Acting Chair of the National Endowment for the Arts. We were 
all very sorry to hear about the sudden death of Michael 
Hammond and appreciate her being with us today.
    Like the budget for the NEH, the NEA's budget is 
essentially flat for the coming fiscal year. Again, I must 
register my disappointment that the budget request was not 
higher. I believe the support for these agencies was 
demonstrated last year by the full House when we rejected an 
amendment to cut NEA funding and then voted to approve an 
amendment to increase funding by $10 million. The President's 
budget request for fiscal year 2003 for the NEA is still one-
third below its level of six years ago, even with the modest 
increase we were able to secure last year and the NEA should be 
commended for addressing prior concerns of the Congress as 
mentioned by the Chairman. More grants are now going out to 
smaller and more rural communities across the Nation. Grants 
from the NEA have brought plays and performances to towns 
across my congressional district and towns like Bremerton, 
Forks, Gig Harbor, Port Angeles and Tacoma. Students and 
families are being directly benefitted because of the support 
we provide the Endowment.
    Mr. Chairman, thank you again for making time for this 
hearing today, providing the opportunity for both Endowments to 
testify. We are very glad to have you here today in your first 
testimony before the committee. We look forward to hearing your 
enthusiastic support for the National Endowment for the Arts.
    Mr. Skeen. Ms. Mason, please summarize your testimony and 
your full statement will be included in the record.

        Opening Statement of NEA Acting Chairman Eileen B. Mason

    Ms. Mason. Mr. Chairman and members of this distinguished 
subcommittee, I am honored to come before you to discuss the 
President's fiscal year 2003 request for $117.382 million for 
the National Endowment for the Arts.
    On November 4, President Bush appointed me Senior Deputy 
Chairman of the National Endowment for the Arts. My career in 
public service includes 22 years as a Federal manager at the 
Federal Energy Regulatory Commission and the U.S. Nuclear 
Regulatory Commission. I am a violinist who has served as Vice 
President of the Arts and Humanities Council for Montgomery 
County, Maryland and as a music advisory panelist for the 
Maryland States Arts Council.

                     TRIBUTE TO MICHAEL P. HAMMOND

    On January 22, the Endowment staff and I welcomed our new 
Chairman, Michael P. Hammond. Dr. Hammond's vision was to 
acquaint Americans with their magnificent, artistic heritage. 
Especially after September 11, Dr. Hammond saw a need for 
Americans to celebrate at home and abroad the arts in America--
the poems of Robert Frost, the music of Duke Ellington and 
Aaron Copland, the dances of Martha Graham and the paintings of 
Edward Hopper and Jacob Lawrence--as beautiful, inspiring and 
worthy of experiencing and preserving for future generations.
    Michael Hammond, composer, conductor, music educator, 
neuroscientist and passionate advocate for the arts died on 
January 29 and I became the Acting Chairman. Dr. Hammond did 
not have the opportunity to lead the Endowment in carrying out 
his vision but we do.
    Since the September 11 attack, Americans have turned to the 
arts to express our anguish over human losses and to confirm 
our common commitments as Americans. Through music and dance, 
painting and poetry, we have been reminded of the depth and 
vitality of our Nation's artistic heritage, a heritage that 
builds on artistic efforts of the past and that continues to 
thrive because our democracy values individual thought, insight 
and inventiveness.
    Mr. Chairman, now is the time to call upon artists, the 
arts community, State, region and local arts organizations, and 
private foundations and corporations to join us in celebrating 
the best of our cultural and artistic heritage through support 
of arts projects in rural, urban and suburban communities by 
providing opportunities for our citizens to experience 
performances, exhibitions, literature and festivals of quality 
works of art, by strengthening all forms of educational 
activity in the arts, especially for the young and by 
preserving and conserving our diverse cultural heritage.

                            MATCHING GRANTS

    We will accomplish this by offering matching grants to 
stimulate more private support for the arts and arts education. 
We are also working to bring greater clarity to our grant 
programs and have consolidated them into fourfunding areas. 
Supporting and preserving artistic excellence, arts learning, Challenge 
America, and strengthening partnerships.
    The Endowment has a longstanding commitment to support and 
preserve artistic excellence. We are requesting $35.9 million 
to provide approximately 1,700 matching grants to support the 
making and presentation of quality works of art, including 
excellent programs on radio and television. We will do all we 
can to support projects that help keep our cultural heritage 
intact by recovering, conserving and preserving our artistic 
achievements.

                        ARTS LEARNING INITIATIVE

    We believe that education in the arts merits direct 
attention and a new focus. My lifelong study of the violin 
began at age nine at my public elementary school in Lynbrook, 
New York under a skilled music teacher who introduced me to the 
pleasure of making music. But in today's culture, there are 
fewer and fewer such opportunities for children. We will work 
to change that.
    In fiscal year 2003, we establish a separate and more 
inclusive arts learning initiative. In communities throughout 
the country, we plan to support projects that combine two 
important components, hands-on learning and introduction to 
excellent art. This two-pronged approach will acquaint children 
with their artistic heritage, stimulate imagination, engage the 
intellect, produce physical skill and enhance curiosity and 
joy. Our request for $11.350 million will support approximately 
350 arts learning grants similar to the educational projects 
developed by Canton Symphony Orchestra in Ohio for elementary 
school students and the arts instruction at the Blue Mountain 
Arts Alliance in Walla Walla, Washington provides after school 
and on weekends for students, especially from low income 
families.

                           CHALLENGE AMERICA

    Through Challenge America, the Endowment will help 
Americans experience the richness and joy of the arts, 
especially in under-served communities. For fiscal year 2003, 
we are requesting $17 million to support outreach programs that 
provide the best of our artistic heritage to citizens 
irrespective of their geographic, economic or other 
limitations.
    Forty percent of Challenge America funds, $6.8 million, 
would be distributed among the State and regional arts 
organizations. Through Challenge America, we will continue to 
support design projects that help revitalize communities 
similar to the renovation of a deteriorated warehouse that will 
be used as a theater and cultural center in St. Marys, Georgia 
and we will continue our strong support for touring and 
residencies. We plan to support projects like the Guthrie 
Theater's tour of Eugene O'Neill's ``Ah, Wilderness'' to rural 
and under-served communities in South Dakota, Wisconsin, Iowa, 
Michigan, Nebraska and Minnesota.

                         PRIVATE CONTRIBUTIONS

    Finally, we will provide seed money that generates more 
private giving to the arts. We will join in partnership with 
private foundations, corporations and State and regional arts 
organizations to support worthy projects. In fiscal year 2003, 
we anticipate that funding to our State and regional partners 
will provide more than 12,000 grants to arts projects in their 
locales.
    Mr. Chairman and members of the subcommittee, I appreciate 
this opportunity to present our plan to provide the American 
people with the best of their artistic heritage. I would be 
happy to answer any questions you may have.
    [The written statement of Ms. Mason follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Skeen. Please let us know what you think are the 
greatest changes from the previous Administration that you will 
pursue in the near future?

                            PROGRAM EMPHASIS

    Ms. Mason. I would say the first change is a clarity of 
purpose and focus. We have four major funding areas. They are 
to support and preserve artistic excellence. We want to have a 
separate area, a very inclusive area for arts learning. It will 
include positive alternatives for youth. Third, we want to 
continue with our Challenge America Program and focus it 
clearly on access so that we can get more dollars through to 
communities that may be under served by geography or economics. 
We want to have a significant increase in quality art programs 
on radio and television.
    Mr. Skeen. Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.
    The increases which Congress provided in both 2001 and 2002 
have all gone into the Challenge America Grants Program. In 
your professional opinion, if additional funds can be found for 
2003, should we spread the increases to other program areas or 
further expand Challenge America?
    Ms. Mason. I would really like to see it spread in three 
areas. The first is to support and preserve artistic 
excellence; second, arts learning and third, Challenge America. 
We think it is a real good balance and we can do different 
things with that money, serve different kinds of communities, 
but we think they are all very important goals for the 
Endowment.

                            REAUTHORIZATION

    Mr. Dicks. We are the Appropriations Committee. We are 
concerned with the fact that we have not been able to get a 
reauthorization of either Endowment. Have you had any 
opportunity to talk to the authorizing committees about the 
possibility of reauthorizing?
    Ms. Mason. I have not had that opportunity.
    Mr. Dicks. That is something I think you should think 
about.

                           ``ARTS LEARNING''

    The budget refocuses your education programs and creates a 
separate budget category called ``Arts Learning'' with a 
request of $11.3 million. Can you explain how this 
reorganization will affect other program priorities at NEA? Is 
there just a reorganization of existing programs or a real 
reallocation of funds from other areas to education?
    Ms. Mason. Formerly we were funding arts education programs 
through a general category called grants to organizations, so 
we will take some of the money from that area and put it in a 
separate category called ``arts learning.'' We funded a program 
called ``Positive Alternatives for Youth'' under Challenge 
America but we would like to really focus on one initiative 
that expresses our concern that there is a need for more arts 
education. The arts learning really is at several different 
levels. It is for early childhood programs, before children 
start school; it is through the school years; and it is also 
community based programs.
    Mr. Dicks. Can you tell the subcommittee how much was spent 
on arts learning type activities in 2002 under the Grants to 
Organizations budget account?
    Ms. Mason. I would like to provide that for the record, 
Congressman.
    [The information follows:]

    In FY 2002, we anticipate spending approximately $5.8 
million on arts learning under the Grants to Organization's 
budget account.

    Mr. Dicks. Fine.
    The Department of Education currently runs a $30 million 
arts education program. Some of the funds are for very specific 
purposes such as very special arts for the disabled, but others 
seem to be similar to what you are talking about with the new 
program. Can you tell us the degree to which you attempt to 
coordinate your education programs with the Department of 
Education?
    Ms. Mason. We are going to coordinate with the Department 
of Education. Our focus is a little bit different. The 
Department gives large grants to school systems. Ours are small 
grants that really focus on arts organizations that can 
supplement that, for instance an orchestra that can come to a 
school district and provide instruction for children in that 
system that can maybe provide instruments, can bring the 
children to the symphony. I think we complement what the 
Department of Education is doing.
    Mr. Dicks. You mentioned in your own experience that you 
had a private teacher. Are students able to find people today 
to teach them the clarinet, the violin and the saxophone?
    Ms. Mason. There are, but I actually started in the public 
school system. It was actually a school teacher in the public 
school system. I took private lessons in public school. I got 
my instrument through the public school and then I went on to 
take private lessons. I think it is uneven. I think many school 
systems can afford to provide music education for children but 
others cannot.

                                STAFFING

    Mr. Dicks. Your budget asks for 150 FTEs to administer the 
Endowment's program, the same as last year and the year before. 
In 1995, you had over 260 FTEs. Do you feel comfortable that 
you have enough people with the right skills to effectively 
manage this program?
    Ms. Mason. We are working at our capacity. We have not 
formally requested more staff but we are working real hard with 
the 150 FTEs that we have.
    Mr. Dicks. How many vacancies are there currently at the 
NEA?
    Ms. Mason. I would have to provide that for the record, not 
very many, but I will provide that to you.
    [The information follows:]

    Our recent vacancy level has fluctuated between 15 and 20 
positions, or approximately 10 percent of the agency's established 
positions.

                                WEBSITE

    Mr. Dicks. We have checked on your website. What do you 
have to say for your website? We thought it was pretty much 
like NEH's website, it could use a little work. What do you 
think about that?
    Ms. Mason. We actually have a task force working on it 
right now. We just started on it. We can improve it. We want to 
improve it.

                              SMALL GRANTS

    Mr. Dicks. Your legislative proposal to expand the pilot 
project which allows a fast track system for processing small 
grants without counsel approval, can you explain how this would 
work and how many grants would likely be involved?
    Ms. Mason. Yes, I can. What we did for Challenge America 
this year was to get small amounts of money, amounts of $5,000 
and $10,000, out to many communities. We wanted to be able to 
do it fairly rapidly so we invited people to apply for grants 
for $5,000 and $10,000. We reviewed applications with readers; 
we did not go through a formal panel kind of review. Then the 
staff made recommendations to the Chairman to approve the 
grants. We like to get them out the door about three months 
after having received them. The reason we came to you and asked 
you for a legislative change is we would like to do this on a 
routine basis for small grants of up to $10,000.
    Mr. Dicks. How much total money would be involved, how many 
millions?
    Ms. Mason. I don't know. I will send that to you. I know 
that we are reviewing about 1,000 applications for these fast 
track grants. The money would be, I would say, less than $5 
million.

    I suspect the amount will vary from approximately $6 million to $7 
million. As you recall, the genesis of this request relates to the 
fast-track awards made under Challenge America. In FY 2002, we 
anticipate awarding approximately $5 million in Challenge America as 
fast-track grants. Outside the Challenge America program, we awarded 
nearly $800,000 in grants to organizations that requested and received 
$10,000 or less.

    Mr. Dicks. Per year?
    Ms. Mason. Yes.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Nethercutt.

                   Opening Remarks of Mr. Nethercutt

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Ms. Mason, welcome. I know it is not easy to follow on Dr. 
Hammond's appointment but you have done so gracefully and I 
know you are doing the best you can in carrying on the 
tradition of the Endowment and certainly the vision that Dr. 
Hammond had.

                  PATRONAGE FROM SUCCESSFUL RECIPIENTS

    You and I had a chance to talk this week and I appreciated 
your coming in anticipation of your testimony. I appreciate 
your mentioning Walla Walla. I urge you to come and visit us 
there. It is a great community and a wonderful place.
    I mentioned to you in our private discussion the concept of 
trying to encourage grant recipients, grantees to pay back or 
give back to the Endowment financial assistance when they have 
been financially successful, commercially successful as a 
result of an NEA grant. Does that make sense to you? What, if 
anything, would you think might be the best approach to 
accomplish that, if you would agree the idea has some merit?
    Ms. Mason. I would certainly like to think about it but I 
certainly think it is something we could put in our guidelines. 
It wouldn't be proscriptive but if we got the idea out there, 
how about giving a little bit back, I think it would be 
terrific.
    Mr. Nethercutt. In a time when you are struggling and we 
are struggling on this side of the table for the money we can 
gather to meet the national needs in all the appropriations 
categories, it seems to me it might be a good opportunity. You 
are trying as well, the Endowment is trying to gather as much 
private support as well as get public dollars in connection 
with your mission.
    I likened it yesterday, and have talked in this 
subcommittee before, about the idea of football players at my 
university, Washington State University, who went on to make a 
pot of money in the pro ranks. They gratefully paid back to the 
University the cost of their scholarship and then some, setting 
an example that by virtue of getting that free education at the 
university level, they were able to play sports and go on to 
commercial success and pay back. I hope we can talk maybe in 
the coming days about implementing that concept in some way.

                             ARTISTIC MERIT

    I noticed in your testimony under arts learning, you say, 
``In today's culture, there are fewer and fewer opportunities 
for a child to stumble across quality art.'' I assume the 
adjective thoughtfully set forth in the testimony. One of the 
problems some in Congress have had with the Endowment has been 
the question of the issue of quality art, what is quality, what 
is below quality that would be funded by taxpayer dollars. It 
seems to me the Endowment has gotten beyond that debate, a very 
legitimate one in my opinion, but also a difficult one, since 
perceptions differ about the quality of art.
    Sort of editorially, I am also one who feels our young 
people maybe don't appreciate the nature of artistic 
achievement over the ages, that we look to perhaps more modern 
definitions of quality as opposed to traditional definitions of 
quality which I think have value in our sensibilities to what 
is and what is not good art.
    I assume you mean something in the traditional definition 
of quality as opposed to the sort of ambiguous definition of 
quality. Could you elaborate on your testimony?
    Ms. Mason. Defining art is very difficult or quality art, 
but we do have criteria and they are artistic excellence and 
the merit of a project, the excellence of a project. We do 
convene panels of experts to review projects. We have expert 
staff who will also look at them. We try to give several levels 
of review so that we can ensure we are funding the best our 
country has to offer.
    One of the things about this arts learning initiative is 
that if you learn how to play the violin like I did, you really 
get to appreciate skill that is needed to make beautiful music. 
I think the more we can introduce our children to learning how 
to play music, how to paint, how to do plays, they will begin 
to appreciate the hard work that goes into creating a beautiful 
piece. That is part of our effort in this arts learning 
initiative.

                           ENGAGING CHILDREN

    Mr. Nethercutt. One final question. Given the challenges of 
modern life, trying to capture the interest of children, I am a 
dad and so certain things attract my kids, certain things don't 
and I assume the Endowment, as it desires to get more art to 
more young people, has to be thinking in a modern context as 
opposed to being stuck in an old tradition. What new approaches 
to art appreciation or music appreciation or exposure to the 
wide range of art and music that children can benefit from is 
the Endowment employing, your website, advertising? Are you 
thinking through that approach to encouraging artistic 
appreciation?
    Ms. Mason. One way is if we can get some really excellent 
programs on radio and television because that is what reaches 
our children; that is what reaches the widest audience. We are 
going to really work in that area.
    Mr. Nethercutt. Have you budgeted for that?
    Ms. Mason. Yes, we have. That is part of our supporting and 
preserving artistic excellence and we want to double the amount 
of money that we have put into radio and television and go from 
$3 million to $4.5 million.
    Mr. Nethercutt. I hope that will be well spent. The 
military services, Mr. Chairman, have to work hard to encourage 
young people to come into the military and have had campaigns 
along the way. They have spent a lot of money. It is much 
better now than it has been.
    I encourage you in that respect and encourage your efforts.
    Thank you.
    Mr. Skeen. Mr. Hinchey.

                     Opening Remarks of Mr. Hinchey

    Mr. Hinchey. Thank you, Mr. Chairman.
    Ms. Mason, it is a pleasure to see you and welcome. I think 
everyone was saddened by Dr. Hammond's death but we are very 
happy you have stepped forward to take on this job. We wish you 
well in that regard. I know it will be interesting and exciting 
for you. I very much enjoyed your opening statement and agreed 
with about everything you said. I think you are going to be 
very good in this position.

                             FUNDING LEVELS

    The question before this committee is level of funding and 
we have had the cultural wars here in the Congress over the 
course of the last almost a decade since funding was slashed 
for both NEA and NEH by almost 40 percent back in 1995. I know 
you support the budget as it is and you are defending it but if 
you could let yourself have a little free rein here, what kind 
of things would you do if you had greater resources somehow?

                         TAKING ART TO AMERICA

    Ms. Mason. We would like to bring more excellent art 
throughout the country. We would like to bring more touring 
companies. We would like to bring Shakespeare plays to every 
region and there are wonderful Shakespeare companies that do 
this in certain regions but they don't go everywhere. We funded 
terrific programs to tour dance companies. There is a program 
that we fund in the New England region. We would like to 
continue to really fund these companies that can reach 
everywhere in the country, to support dance and composers in 
residence. We would like to do more of what we are doing and 
more on radio and television.

                      ARTS ON TELEVISION AND RADIO

    Mr. Hinchey. I was interested particularly in the radio and 
television part. You are spending now a pretty small amount of 
money on radio and television but the use of mass media is a 
great way to reach out to a larger audience, particularly 
younger larger audiences. Can you tell us a bit about what you 
are doing with radio and television now and what you would like 
to see done in the future if there were greater resources to 
expand that program?
    Ms. Mason. There are some terrific programs that we fund on 
radio and television: Great Performances, Ken Burns' wonderful 
jazz program, and American Masters.
    Mr. Hinchey. Where would that be?
    Ms. Mason. National Public Radio, Public Broadcasting 
System and Public Radio International carry programs that we 
fund.
    Mr. Hinchey. Those are the principal venues. Do you do 
anything, for example, with National Geographic, the History 
Channel or the Learning Channel?
    Ms. Mason. Not to my knowledge.
    Mr. Hinchey. I don't know if it is a good idea or not, but 
has anyone thought about that, about expanding into those 
venues?
    Ms. Mason. We haven't but we certainly can. It sounds a bit 
like a Humanities project but we could certainly look into it.
    Mr. Hinchey. Talking about some of the arts, I think in 
some ways it might be compatible. I don't know.
    Ms. Mason. I agree with you.
    Mr. Hinchey. The issue of radio and television I think is 
very important. I am happy that you are moving in that 
direction. I think we should work closely with you and try to 
find ways in which we can use those venues to increase the 
availability of arts to larger audiences. There are a lot of 
people who live in urban areas where there are great art 
performances available just blocks away but they don't get out 
of the house or the apartment very much and they certainly 
don't get out of the neighborhood but they do have television. 
If there is some way you could hook them through their devotion 
to television and get them to take the trip, make the few block 
trip to where those art performances are taking place, I think 
that would be a great contribution and something of which we 
all would be proud.

                             STRATEGIC PLAN

    The last thing I wanted to raise was your strategic plan. I 
know you talk about it in your introductory remarks. I wonder 
if you could tell us a bit more about what you would like to 
achieve with the strategic plan and what your new approach 
might be?
    Ms. Mason. In two weeks, we are starting our strategic 
planning process. The budget we have presented will be the 
basis for establishing the new strategic plan. We are going to 
invite stakeholders to work with us. We are going to start a 
strategic planning process. We will look at our mission, our 
goals, our objectives, our strategies, and our outcomes and 
align them with the budget we presented today. When we complete 
that, we will look at our internal structure, organizational 
structure and our internal processes and see if we are in 
alignment. I look forward to it; I think it is an interesting 
process.
    Mr. Hinchey. We look forward to working with you and we 
will hear a lot more from you after you have a few more weeks 
on the job.
    Ms. Mason. Thank you, Congressman.
    Mr. Skeen. Mr. Kingston.

                    Opening Remarks of Mr. Kingston

    Mr. Kingston. Ms. Mason, welcome. There is kind of a 
smorgasbord of issues here and many have already been touched 
on. I noticed you taught in Hephzibah, which is always hard to 
pronounce.
    Ms. Mason. I taught in Hephzibah, Georgia for a year. My 
husband was stationed at Ft. Gordon, Augusta and I enjoyed it 
very much. I taught high school.
    Mr. Kingston. That is the home of Hardy of Laurel and 
Hardy?
    Ms. Mason. I don't know. I enjoyed it. It was very 
different for me.

                          CONTROVERSIAL GRANTS

    Mr. Kingston. It was kind of interesting because I think 
his career may have gotten in trouble for some remark or 
something that he was deemed politically incorrect, I can't 
remember what it was, not the first or last performer to have 
that happen. Over the past in NEA, we have had that situation. 
This committee and all committee members have been asked to 
defend or criticize the NEA over all of our tenure here.
    I think the thing that really changed it was there was a 
Supreme Court case about a woman in an artistic exhibit covered 
in chocolate, it was tax funded and the Supreme Court said yes, 
taxpayers do have a right to say to a grantee this is what the 
art would be. That is what changed the debate despite our 
congressional brilliance. That, as Mr. Nethercutt, said has 
died down. Do you receive any pressure about that? Is that 
behind us? It was a good debate as Mr. Nethercutt said. I am a 
strong advocate of artistic freedom but not on my nickel, more 
importantly, not on some guy out there making $10 a hour 
driving a truck having to subsidize it.
    How behind is that? Where is NEA today because 
unfortunately that is the identification with probably the 
majority of constituents of the NEA in many of our districts. I 
have spent a lot of time trying to educate people and I think 
we are kind of past that now.
    Ms. Mason. We are, Congressman. The Congress put in many 
reforms in 1996. We fund organizations, we don't fund 
individuals with the exception of our literature fellowships; 
we don't fund seasons, full seasons of support, we fund 
individual projects. We have a rigorous process. We try to 
convene expert panels to review these grants who come from all 
over the country and represent diverse backgrounds and 
expertise in the arts disciplines. We have a lay person on 
every panel. So we hope that the panels have a great deal of 
knowledge and can bring their knowledge to helping us determine 
artistic merit and excellence.
    Then we have a National Council on the Arts that recommends 
to us what grants we should fund. They are meeting with us this 
week. They weigh in and then theChairman can reject or accept. 
So I think our processes are in place. I believe we have a 
responsibility to you and to the taxpayer.

                   GEOGRAPHIC DISTRIBUTION OF GRANTS

    Mr. Kingston. Let me ask you this. I have a list of grants 
in Georgia, about 99 percent have bypassed my district. If I 
was the NEA, I would bypass my district as somebody they would 
recognize as being a critic over the years of the way things 
are. However, while the NEA is saying we believe in artistic 
freedom, it is interesting to me that same group would be 
punishing artists in Georgia. I represent coastal Georgia where 
there is a plethora of artists and theater groups.
    In your short time on the watch, how political are these 
assignments? Is it just that we do have a deficit of art in our 
area because I am curious, if I looked at some of the other 
States that have benefitted, would I see a political pattern 
over the last eight years?
    Ms. Mason. Not at all. Congressman, you missed my testimony 
when I talked about a project in your district that we recently 
funded it was to renovate a deteriorated warehouse for use as a 
theater and cultural center in St. Marys, Georgia.
    Mr. Kingston. It is very good, I am sorry I missed it.
    Ms. Mason. We would like to fund more things in your 
district. There is no reason why we wouldn't. I think what we 
need to do is come to your district, have a workshop and advise 
people in your area how they can apply. We welcome applications 
from your district.
    Mr. Kingston. I would not want you to do it as a way of 
buying off my good graces. Because one of the great criticisms 
along with the First Amendment, freedom of speech, the debate 
was 70 percent of the distribution actually went to the State 
of New York and we were told that is where all the theater 
groups are, which is the equivalent of saying the water is only 
in one of the Great Lakes. There are others in the country that 
might not be as big but there is plenty of water to go around.
    That has been a criticism over the years. It does seem like 
New York groups had the franchise on the grants. I am glad to 
see with the grant program, you are kind of distributing that 
more but I would like to see that process accelerated.
    Ms. Mason. Congressman, the Congress put in a mandate to us 
that said we couldn't award more than 15 percent of our grants 
to any one State. We respect that and are abiding by it. We 
have really increased the States and the districts that grants 
have gone to and will continue to do that.

                  PATRONAGE FROM SUCCESSFUL RECIPIENTS

    Mr. Kingston. One of the things Mr. Nethercutt also 
mentioned was going after artists who have been grantees in the 
past and now they have moved on to more successful stations in 
their career who maybe can pull out their checkbook. My wife is 
on a theater board in Savannah and much to my amazement, a 
number of substantial actors had actually been there and come 
up through the ranks. Yet, none of them turned around and wrote 
a check. I don't know if that is something maybe the artistic 
community as a culture needs to step forward a bit more. I 
don't know if there is a pattern there or not. Do you think 
there is or are we just not asking them?
    Ms. Mason. I think some people give back to their 
particular arts institution. If you are a very successful 
artistic director at a theater, you may give a lot of your 
profits to that particular theater. I can't really speak for 
artists who have not given back. It really isn't an area I have 
looked into.
    Mr. Kingston. But you are developing that?
    Ms. Mason. It is a very good point and we will see what we 
can do, sure.
    Mr. Kingston. When you think about $117 million, it is not 
much money particularly when you can see so many actors who can 
collectively raise all kinds of money for different causes. 
That would be a great source of additional income, matching 
grants or something like that.
    Ms. Mason. We can make an effort. I do want to say that for 
every dollar we award, an organization does have to have 
matching funds at least equal to that and actually, our ratio 
is about 1 to 8. For every Federal dollar, there is usually 
about eight dollars from the private sector behind that. It is 
a good investment. If we invest $50 million, the private sector 
is investing about $400 million to those organizations.
    Mr. Kingston. I know I have gone over and my friend, Mr. 
Moran, is chomping at the bit to ask good questions as he 
always does.
    Mr. Moran. I am your friend as long as you keep sending me 
those Vidalia onions, you are a good friend.
    Was that a suggestion that I could ask some questions, Mr. 
Chairman?
    Mr. Skeen. We are going to wind up soon. We waited for you.

                   PERCENTAGE OF APPLICATIONS FUNDED

    Mr. Moran. Thank you, Mr. Chairman.
    How many grants are you not funding, Ms. Mason?
    Ms. Mason. We fund about 55 percent of our applications 
which get awards.
    Mr. Moran. About one out of every two. Of those that are 
turned down, is there some point at which you would diminish 
quality? I assume if you were funding 75 percent of the 
applicants, the average level of quality would not diminish 
much, would it?
    Ms. Mason. I think also we would probably like to give more 
money.
    Mr. Moran. That is the second part of my question. You 
could probably go to 75 percent or so?
    Ms. Mason. Many of our projects are excellent projects and 
we just cannot fund them all and we cannot fund them to the 
extent we would like. They might come in for a request and we 
can only give them half of the request.
    Mr. Moran. That is the second half of my question. The 
average grant keeps being reduced, doesn't it?
    Ms. Mason. We give some small grants for $5,000 and 
$10,000. We don't give those huge grants that we gave earlier 
on.

                         OPTIMUM FUNDING LEVELS

    Mr. Moran. In the halcyon days when we were actually 
showing some marginal appreciation of the arts in our country.
    At some point it would seem we almost reached the point of 
diminishing returns for some of these applicants. If you are 
only getting $5,000, it costs a heck of a lot of money to go 
through the application process, so there is probably a lot of 
fine projects that are just discouraged because the average 
grants are getting so low.
    If you had your 'druthers and we didn't have the mean, old, 
nasty OMB, let alone some of my colleagues in the Congress who 
are out to get you--none of the people here--what would you 
have requested of OMB?
    Ms. Mason. I would have to stand by the President's request 
for $117 million.
    Mr. Moran. I know you do. That is not the answer to the 
question. I can read $117 million. If you were adequately 
funding the quality in terms of necessary funding levels, the 
quantity of requests that would maintain the existing level of 
artistic excellent, what level of funding do you think would be 
necessary?
    Ms. Mason. Can I get back to you, Congressman?
    Mr. Moran. Sure, but it comes back and the hearing was six 
months later and nobody every notices. I am looking for some 
speculation. You must have some staff people with you who know 
what the answer to that might be?
    Mr. Moran. I trust there is a civil servant whose job is 
adequately protected.
    Mr. Kingston. If my friend would yield, I want to say I 
would like to jump to the unlikely position for me of defending 
the NEA and saying you have just touched the reason Ms. Mason 
is a team player and it seems like somebody we all want to work 
with, so it probably is in her best interests to make sure if 
the gentleman on the right answers that he is well protected 
because from what I understand, Democrat or Republican, the 
folks over at the big house play this game pretty seriously. 
They are not exactly First Amendment people all the time.
    Mr. Skeen. You have shown real devotion. We are glad you 
are here.
    Mr. Baden. My name is Larry Baden. I would probably answer 
the question by saying that we fund about 20 to 25 percent of 
the financial requests. The financial requests result in about 
two-thirds or more of our applicants having to revise the 
projects they seek support for. If we had additional resources, 
we would be able to fund those at a larger amount and probably 
be able to fund more fully the kinds of activities they wish to 
support.
    Mr. Moran. So basically, if you were to come in for full 
funding requested, it would be in the neighborhood of $468 
million? Thank you very much. I assume NEH is in a similar 
position but you don't have to speak for them. Thank you for 
putting that on the record.
    Thank you, Mr. Chairman. That is all the damage I wanted to 
do.
    Mr. Skeen. You have done very well.
    The hearing is now adjourned and wisdom abounds.
    [Questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Wednesday, March 6, 2002.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

BRUCE COLE, CHAIRMAN, NATIONAL ENDOWMENT FOR THE HUMANITIES

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Good morning.
    I want to welcome you all today to our two hearings dealing 
with the Endowments. We will first hear from the National 
Endowment for the Humanities and its new Chairman, Dr. Bruce 
Cole. After that hearing, we will begin immediately with the 
National Endowment for the Arts and its Acting Chair, Eileen 
Mason.
    I would like to get both of these hearings done before 
lunch. Therefore, I encourage the witnesses and the members to 
be brief and to the point.
    Good morning. It is good to have you here.
    Mr. Dicks, would you like to make any opening remarks?

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    I want to welcome Chairman Cole. I look forward to hearing 
testimony about the President's request for the next fiscal 
year. I want to express my appreciation to the Chairman for 
making time for the two hearings this morning on the 
Endowments.
    While I am pleased to see that the NEH was spared the cuts 
proposed to other programs in the budget this year, I must 
reiterate my strong support for increases for both of the 
Endowments. The National Endowment for the Humanities provides 
a tremendous benefit in our communities across the United 
States for very little Federal money. It is a wise investment.
    I understand that the President has requested essentially 
flat funding for the NEH this year, but I would hope that this 
subcommittee remembers that in 1995, the NEH was funded at $172 
million. That budget was cut in 1996 by 36 percent down to $110 
million. Even with the very modest increases that we have 
provided recently, we are still dealing with a budget that is 
one-third below its level six years ago. I hope we can do 
better.
    Again, thank you, Mr. Chairman, for holding this hearing. I 
look forward to the testimony of our new NEH Chair and to 
working with you throughout the budget process this year to see 
if any additional funding can be made available for this worthy 
agency.
    I would just comment, Chairman Cole, that anytime you get 
press like this in the ``Washington Post,'' you are off to a 
very good start. I had to leave the Defense Subcommittee this 
morning but I didn't realize I would be coming over to hear 
about homeland defense and humanities. But you are quite wise 
to suggest that we have to understand as a Nation, what our 
values are and why we are defending democracy, and why we care 
about the American way of life. I think you have tied these two 
together very nicely. I look forward to your statement.
    Mr. Skeen. In the interest of time and to make sure the 
members have time for questions, please summarize and your full 
statement will be included in the record.

                  Statement of NEH Chairman Bruce Cole

    Mr. Cole. Thank you very much. I am honored to be here.
    I am honored to testify on behalf of the budget request for 
the National Endowment for the Humanities. I would like to make 
some brief opening remarks and ask that my prepared statement 
be entered in the record.
    As you know, this is my first appearance before this 
distinguished committee. Over the last few weeks I have enjoyed 
meeting many of you and hearing your ideas about the 
Endowment's important role in our society. I look forward to 
working with each of you during my tenure as NEH Chairman.
    The Administration and the NEH are requesting a budget of 
$126.893 million for the agency for fiscal year 2003. This 
funding would enable NEH to continue providing significant 
support throughout the United States for high quality 
education, scholarship, preservation and public programs in the 
humanities.
    I have been an admirer of the NEH over the course of my 
more than three decades as a scholar, teacher, and 
administrator. Early in my career, I was honored to receive a 
fellowship grant from the NEH which provided me with valuable 
time to conduct research on the origins and development of 
early Florentine painting. I also served as an NEH panelist in 
the Endowment's highly regarded merit review system, and in 
1992, President Bush appointed me to the National Council on 
the Humanities, the agency's 26 memberadvisory board where I 
gained a broader knowledge of the agency's programs and was privileged 
to meet and work with many of its talented and dedicated staff, some of 
whom are in the room today.
    Since coming to NEH less than three months ago, I have been 
learning more in detail about the procedures and operations of 
the agency's programs and offices. This experience has 
confirmed my long-held view that NEH plays a crucial role in 
the life of our Nation.
    Much of my life's work as an art historian and teacher has 
been predicated on the idea that the humanities inform and 
enrich our lives, but the humanities are also important to us 
as a Nation. The NEH's founding legislation declares that 
``Democracy demands wisdom and vision'' precisely because in 
order to flourish, our country needs informed and thoughtful 
citizens who can participate fully in our democracy.
    The study of history, literature, languages, philosophy, 
and other humanities subjects, not only helps us to develop 
wisdom, it also enables us to understand our Nation's history 
and institutions as well as the history and culture of other 
nations.
    In the aftermath of the events of September 11, the need to 
study the humanities is even more pressing. The terrorist 
attacks were an assault on our principles of freedom and our 
culture. I believe that to defend our country, we must first 
understand it.
    As noted in our budget request, the Endowment is launching 
a special initiative in response to September 11 to encourage 
projects that advance our knowledge of the ideas, people, and 
events that shape and define our Nation. This new initiative, 
``We The People,'' will encourage scholars, teachers, museums, 
libraries, and other individuals and institutions engaged in 
the humanities to develop projects of excellence and 
significance on these themes.
    Applications responding to the initiative will be welcome 
in all of the agency's divisions and programs and will be 
evaluated through our established merit review process. The 
initiative will complement the work of the agency's core 
programs which will be maintained and strengthened in fiscal 
year 2003.
    We are instituting a renewed focus on the core activities 
of the Endowment, that is, humanities education, scholarly 
research, preservation, and public programming on both the 
national and State levels. These functions were the reason the 
NEH was created more than 35 years ago and they will be our 
priority in the coming years.
    This renewed emphasis on core functions means we will not 
be creating costly special initiatives that function outside 
our normal grantmaking process. Receiving an NEH grant is a 
national seal of approval that identifies a project as having 
withstood the rigors of NEH's merit review process. I will make 
sure the NEH maintains its high standards of excellence 
throughout my tenure as Chairman.
    I believe that Federal agencies entrusted with taxpayer 
money should always strive for frugality and accountability 
while delivering a high level of service to the American 
people. The public invests not only its tax dollars but its 
trust in the NEH and to keep that trust, we must use taxpayer 
money wisely. If approved by the Congress, the NEH fiscal year 
2003 budget would be a wise and responsible investment for the 
Nation.
    Now I look forward to hearing the committee's thoughts 
about the work of the Endowment and to answering any questions 
you may have.
    [The written statement of Mr. Cole follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Skeen. Thank you.

                            NEW NEH EMPHASIS

    This is your first year as NEH Chairman, please explain 
what you feel to be your biggest challenge now that you are 
here and in charge?
    Mr. Cole. What is different and suggest [you will make now] 
what are our goals? We have a renewed focus on excellence in 
everything we do. We have developed a new mission statement and 
worked on defining our goals. We have a new initiative called 
``We The People,'' which I just mentioned [and] which I would 
be happy to talk about later, focused on American history and 
culture. I would like to read our new mission statement.
    ``Because democracy demands wisdom, the National Endowment 
for the Humanities serves the American people and strengthens 
our Republic by educating the citizenry, promoting excellence 
in humanities scholarship, and preserving the lessons of 
history.''
    The goals we have articulated so far are to reinvigorate 
and strengthen the NEH's core functions with excellence as our 
guiding principle. We also want to increase knowledge and 
understanding of American history, institutions, and culture 
nationwide. Lastly, we want to strive to improve the teaching 
of the humanities. Basically, those are our goals.
    Mr. Skeen. Mr. Dicks.

                      REGIONAL HUMANITIES CENTERS

    Mr. Dicks. The budget tables submitted to the subcommittee 
indicate that you are proposing to discontinue the new regional 
humanities centers, a program started by your predecessor, and 
transferring about $1.7 million funding previously budgeted for 
the centers to the Treasury Fund's Grant Program. Except for 
the entry in your budget table, there is no analysis of how the 
2002 funds are being spent. Why do you believe the program 
should be discontinued or what the future is for those centers 
previously announced? What can you tell us about your plans for 
the regional humanities centers?
    Mr. Cole. We have offered implementation grants to eight 
centers across the country. We believe these implementation 
grants will enable those centers to move forward with their 
plans. We very much look forward to their success. These grants 
were the catalysts.
    These eight centers can also come back to the Endowment and 
apply for Challenge grants. We wish them well and we think they 
will thrive. We would like a transfer of the money that was 
appropriated for that into Treasury funds where we think it 
will do a lot of good. I see the movement to Treasury funds as 
a kind of democratization of our grants, because those funds 
can be used for smaller entities-museums, libraries, and 
schools that do not have the infrastructure to raise the much 
more difficult Challenge grants.
    Mr. Dicks. How many centers were planned?
    Mr. Cole. Ten.
    Mr. Dicks. So you are going to leave it at eight and then 
there will be no funding in the future starting in 2003 for 
them but they can apply for Challenge grants?
    Mr. Cole. Absolutely.
    Mr. Dicks. They will get one if they deserve it and if they 
don't, they are gone. They are eliminated or they would just 
expire?
    Mr. Cole. That is right, unless they raise money on their 
own.
    Mr. Dicks. Put in the record if you would the eight that 
have been approved.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Cole. One is still pending.
    Mr. Dicks. And one is not pending. Is there a reason to 
keep them going in 2003? Is there a reason to keep them going 
if you don't support them?
    Mr. Cole. We have already awarded them the implementation 
grants.
    Mr. Dicks. So it is too far down the line. I don't want to 
disrupt anything. So that is the way you are going to handle 
it.

                       STATE HUMANITIES COUNCILS

    Approximately one-quarter of your funding is allowed to the 
State humanities councils. This is currently about $32 million. 
Could you explain to the subcommittee how the work of these 
councils is coordinated with the national priorities which you 
set at NEH?
    Mr. Cole. First, I should say I am a great fan of the State 
humanities councils. I think they do wonderful work. They do 
work on the grassroots level that we can't and shouldn't do. 
The State councils are also eligible to apply to the Endowment 
for grant money, and last year they received about like $1.8 
million in grants from us.
    Mr. Dicks. That is above the $32 million automatically 
allocated to them?
    Mr. Cole. That is correct. We work closely with the State 
humanities councils, but we identify goals on the national 
level; they are very good at identifying issues and projects on 
the grassroots level. I think we complement each other very 
well.

                          ADMINISTRATIVE COSTS

    Mr. Dicks. Your budget shows you are currently funding five 
less FTEs in 2002, 170 in 2001, and 10 less than proposed in 
your original 2002 budget request, 180. Can you explain why you 
have reduced staffing? We don't disagree with that but just 
tell us why.
    Mr. Cole. Some vacancies have not yet been filled, but I 
think our staffing is at a minimum. We are a very lean and 
efficient organization. I can get you the figures on that.
    [The information follows:]

                              NEH Staffing

    The FY 2002 NEH budget submission requested 180 FTEs--an 
increase of 5 FTEs over the FY 2001 level. Subsequently, 
however, the Endowment determined that an increase in staff was 
not needed and not practical within a relatively flat 
administrative budget. Thus, no staff reductions have been 
made. For FY 2002 and FY 2003, NEH is projecting a total of 175 
FTEs--the same level as in FY 2001.

    Mr. Dicks. The issue of moving NEH out of the Old 
PostOffice is still pending. Are we correct that no move is expected in 
2003 and no funds have been included for a move in this budget?
    Mr. Cole. Our administrative budget includes a small amount 
of planning money for relocation, but that is correct, we don't 
anticipate moving out soon.

                              NEH WEBSITE

    Mr. Dicks. In preparing for your hearing, the staff 
reviewed your website. It was helpful but not as developed as 
many other government agencies. NEH doesn't seem to use it very 
frequently. As an example, it appears the last posting under 
your news and publications site was December 20. Can you tell 
the committee what plans you have for your website?
    Mr. Cole. When did they look at it? It has been updated 
since then.
    Mr. Dicks. Friday. I think these websites are very 
important, especially for the National Endowment for the 
Humanities. You should have one at the cutting edge.
    Mr. Cole. I think we have a very good design. We are 
working very hard on the website and are making some changes. 
Our website is a great tool because it has an enormous amount 
of information about our grant programs and includes 
application materials which our applicants have found 
enormously helpful and which has saved our agency time and 
money. We are very interested in moving towards electronic 
applications to save time and money. There are many good 
features on our website.

                           ``WE THE PEOPLE''

    Mr. Dicks. Except for the administrative line in your 
budget, most other activities are flat funded. Despite this, 
you are rearranging funds to support a new ``We The People'' 
initiative within existing funds. Can you tell us what 
activities you would expect to reduce to support this new 
program?
    Mr. Cole. We are not actually rearranging any funds to 
accommodate ``We the People.'' Those applications will be 
processed through our programs divisions. There are no 
setasides or funds moving to the divisions for the initiative.
    Mr. Dicks. You are just going to use existing funds?
    Mr. Cole. Right. We are very anxious that those 
applications are handled by the normal grantmaking processes of 
the divisions.

                          ADMINISTRATIVE COSTS

    Mr. Dicks. Traditionally, this subcommittee has been 
supportive of adequate funding for administrative oversight at 
our agencies. We can't help but note that over 16 percent of 
your 2003 request is for administrative cost. Are you satisfied 
that the current allocation of resources for administration is 
appropriate?
    Mr. Cole. Yes, I am. I think a good deal of those 
administrative costs are directly involved with processing and 
managing grants and the like. We are a very lean agency. A good 
part of our administrative expenses go right to the heart of 
our central function, which is delivering high quality grants.
    Mr. Dicks. You don't think you could cut that at all?
    Mr. Cole. I will look at our administrative budget very 
carefully, but it is that it is a pretty minimal amount.
    Mr. Dicks. Your budget includes $300,000 to set up a new 
Planning and Assessment Program to review the state of 
humanities in this country. Can you tell the subcommittee how 
this program will be organized?
    Mr. Cole. We did have a data gathering and analysis program 
up to about the mid-1990s. We are asking for this money because 
we are very anxious to track more carefully our own grants, to 
analyze trends in humanities scholarship, to look at curriculum 
and the like. This amount of money will give us the capability 
to do this and help in our long-range planning.
    Mr. Dicks. You have been involved over the years and 
followed the work of the NEH. Do you see any other areas where 
significant change may be expected?
    Mr. Cole. This is something I would want to think about. 
Right now, we are very much interested in reinvigorating and 
enhancing the core functions of the agency. We think the 
various divisions of the Endowment do a terrific job. They are 
always reviewing and examining, as we are, the various grant 
programs, to try and be as responsible and as responsive as 
possible to what is going on in the humanities community 
nationwide.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Hinchey.

                     Opening Remarks of Mr. Hinchey

    Mr. Hinchey. Mr. Cole, welcome. It is nice to see you 
again. I want to congratulate you once again on your 
appointment and say again I think the President has made a fine 
selection to head the NEH. We are very happy that you are 
there. We expect you will do a very good job.

                      REGIONAL HUMANITIES CENTERS

    I want to follow up on the rationale behind the elimination 
of the Regional Humanities Centers. This was a major initiative 
of the previous Administration and your predecessor, Bill 
Ferris. The idea behind it was to recognize the fact that the 
humanities in the United States are many and varied. The 
humanities in our country have developed essentially on a 
regional basis and the kind of homogenization of the culture in 
our country that has taken place over the course of the last 
several decades is very different from what took place prior to 
that. This was a recognition that there are essential 
ingredients regionally in our country that ought to be 
recognized and preserved.
    I see you shaking your head apparently in agreement 
withthat. I am wondering what the NEH is going to do, if anything, to 
recognize these regional differences and the very important and unique 
contributions they have made to our culture, to enhance them, and also 
to encourage the continuation of the development of these aspects of 
our culture on a regional basis?
    Mr. Cole. I agree that regionalism is very important. The 
NEH does support projects on American regionalism in almost 
every division. The State councils also do an excellent job of 
promoting the study of regionalism.
    Many of our grants involve the study of cities, rivers, 
oral traditions, and the like. We also make a number of grants 
to support the study folklore. I would like to encourage 
projects on American regionalism, but I believe we do that very 
well now within the normal grantmaking programs of the 
Endowment.
    Mr. Hinchey. Your view is that this regionalism can be 
recognized, celebrated, and enhanced and encouraged to continue 
simply on an ad hoc basis?
    Mr. Cole. I think regionalism is a very fundamental part of 
our culture. There is nothing ad hoc about its recognition or 
celebration.
    Mr. Hinchey. You think it can be encouraged that way simply 
on an ad hoc basis, without any overall statement or initiative 
on the part of the NEH to say to people that this is important 
to us and, in addition to celebrating the past contributions, 
we want to recognize those in the future?
    Mr. Cole. I think there is an awareness out there in the 
humanities community that regionalism is an important topic. We 
do have grants focused on regionalism and we do want to 
encourage it. I agree 100 percent that the study of regionalism 
is absolutely essential and we will encourage such projects in 
our regular programs.
    Mr. Hinchey. I think this is something that is important 
and it is important for us to watch how this aspect of your 
responsibility is carried out over the course of your tenure.
    We will be working with you to try to see that the 
humanities continue to advance.
    Mr. Cole. I look forward to that and I look forward to 
talking with you about that in the coming years.

                           ``WE THE PEOPLE''

    Mr. Hinchey. Could you give us a bit more detail on what 
the philosophy is behind the We The People approach?
    Mr. Cole. The humanities are always central to what we do 
and I think the NEH exists solely to serve the American people. 
The agency's enabling legislation in 1965 was very wise because 
it says that ``democracy demands wisdom and vision''. I see our 
mission as helping Americans prepare to become the best 
citizens they can, to understand where they are and where they 
have come from, and to have a compass for the future.
    The events of September 11 have underscored the need for 
this kind of reflection. To put it simply, why do we fight? 
What are we fighting about? If we don't understand our 
institutions, our liberties, our tolerance, and our history, we 
don't have a compass. We need to encourage that, especially at 
this time. I think it is imperative. I feel very strongly that 
the NEH should encourage people to think about these matters.
    I do see ourselves as an essential part of homeland 
defense. This agencywide initiative will encourage the best 
proposals to address such questions as why we are Americans, 
why we fight, what our liberties are, and why we need to defend 
them.
    Mr. Hinchey. It is an interesting approach and I think it 
is unique in the relatively brief history of NEH. Is this an 
idea you originated, did it originate internally within NEH, or 
did this come about as a result of encouragement from the White 
House?
    Mr. Cole. No, we originated at the NEH. I thought about 
this idea before I came to the Endowment and I also have a very 
talented staff who collaborated with me on developing the 
initiative. I see it as a collaboration.
    Mr. Hinchey. Thank you very much.
    Mr. Skeen. Mr. Dicks.

                          HUMANITIES EDUCATION

    Mr. Dicks. Let me ask another question on education. Does 
the American Government have an integrated educational policy 
which explains the role of the NEH in helping develop 
materials, develop teaching as well as supporting scholarship, 
preserving historic materials and providing outreach to the 
public?
    Mr. Cole. I don't know but I can find out.
    Mr. Dicks. Do you think it should?
    Mr. Cole. I am not sure. That is something I want to think 
about.
    Mr. Dicks. Do you think the NEH should play a role in this?
    Mr. Cole. Absolutely.
    Mr. Dicks. You do work with teachers, teacher training?
    Mr. Cole. Yes. A lot of the work of our programs is 
centered on teaching, generating, educational materials, 
transmitting scholarship, enriching the curriculum, and 
teaching teachers more about humanities subject matter. We have 
a tremendous role in the education of our citizens. That is 
something I would like to see increased, especially as it 
pertains to the knowledge of our country and especially our 
history.

                       LEVERAGING PRIVATE SUPPORT

    Mr. Dicks. What is NEH doing to encourage private support 
for projects in the humanities? Do your successes lessen the 
need for Federal money?
    Mr. Cole. I think we do generate a lot of private support 
through our Challenge Grants, program based on a one-to-three, 
or one-to-four matching requirement. We have been able to 
leverage millions of dollars from the private sector. I believe 
this has been very, very successful.
    The NEH has also been able to raise some private money on 
its own. But when we start raising private money, we may come 
into lots of it--if that is possible and I don't really think 
it is--but also come into conflict with other humanities 
organizations, including our own grantees who are all competing 
for the limited amount of dollars that goes to the humanities.

                  ALLOCATION OF FY 2002 APPROPRIATION

    Mr. Dicks. Last year you received an increase of about $5 
million. What was done with this increase?
    Mr. Cole. I am not conversant with exactly what happened in 
the budget last year but I do believe it was distributed among 
the divisions.
    Mr. Dicks. If you could put in the record a more definitive 
answer, we would appreciate it.
    Mr. Cole. Yes.
    [The information follows:]

             Distribution of FY 2002 Appropriation Increase

    The administration requested a budget of $120,504,000 
million for NEH for FY 2002, an increase of $509,000 over the 
FY 2001 appropriated level. All of the proposed increase was 
allocated to the agency's administrative budget. The Congress 
appropriated an additional $4,000,000 over the FY 2002 request 
level and distributed the funds among the agency's program 
lines as follows:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Federal/States Partnership.................................   $1,236,000
Education Programs.........................................      549,000
Public Programs............................................      554,000
Preservation & Access......................................      617,000
Research Programs..........................................      544,000
Regional Centers...........................................      500,000
                                                            ------------
    Total..................................................   $4,000,000
------------------------------------------------------------------------


    Mr. Skeen. Thank you very much for your informative 
testimony.
    Mr. Dicks. I have one more question. It says in this 
article, ``When he was a teenager, he loved motorcycles, but 
eventually gave them up. Recently, he bought a used, red Suzuki 
750.'' Is this good? [Laughter.]
    Mr. Cole. Yes.
    Mr. Dicks. Make sure you wear your helmet.
    Mr. Cole. Thank you.
    Mr. Hinchey. My addition to that would be, why wasn't it a 
Harley?
    Mr. Cole. I aspire to a Harley.
    Mr. Skeen. Thank you. We wish you well.
    The hearing is now adjourned.
    [Questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                            W I T N E S S E S

                              ----------                              
                                                                   Page
Bloomfield, S.J..................................................   289
Cogbill, J.V., III...............................................   281
Cole, Bruce......................................................   167
Dailey, John.....................................................     1
Mason, E.B.......................................................    91
Small, L.M.......................................................     1
Spelman, Lucy....................................................     1


                               I N D E X

                              ----------                              

                        Smithsonian Institution

                                                                   Page
Affiliation Program..............................................20, 23
Aftermath of September 11, 2001...............................6, 16, 21
Backlog Maintenance, NAPA Report.................................    28
Biography of Mr. Lawrence Small..................................    12
Biography of Mr. John Dailey.....................................    14
Biography of Ms. Lucy Spelman....................................    15
Budget Request for FY 2003.......................................     9
Corporate Sponsorship............................................    24
    Commercialization of Smithsonian.............................    37
    Issue of Commercialization...................................    35
    Naming Opportunities.........................................    36
    National Zoological Park.....................................    34
    Private Sector Donations and Funding, History of.............     3
    Public Policy on Corporate Sponsorship.......................    27
    Smithsonian Policy on Corporate Sponsorship..................    26
Funding from the Private Sector.................................. 3, 18
Increased Public Engagement......................................     6
Level of Activity................................................    16
Management Excellence and Greater Financial Strength.............     7
National Air and Space Museum Udvar-Hazy Center..................    18
National Museum of the American Indian--Mall Museum..............20, 22
National Zoological Park.........................................    29
    Backlog Maintenance..........................................    30
    Corporate Sponsorship........................................    34
    Cost of Five-Year Renewal Plan...............................    32
    Five-Year Renewal Plan.......................................    31
    Improved Exhibits............................................    32
    Kids' Farm...................................................    34
    Veterinary Services..........................................    33
    Visitation...................................................    33
Opening Remarks:
    Mr. Dicks....................................................     1
    Mr. Hinchy...................................................    24
    Mr. Nethercutt...............................................    22
    Mr. Skeen....................................................     1
Opening Statement of Mr. Small...................................     2
Organizational Change............................................    16
Outreach.........................................................     4
Personnel: Cutbacks, Hiring Freeze, and Reallocation of FTE's....    40
Proposed Transfer of Science Program to the National Science 
  Foundation.....................................................    39
Questions for the Record:
    Buyout Authority.............................................    66
    Enterprise Resource Planning System..........................    64
    General Reduction............................................    65
    High Priority Needs..........................................    63
    Impact of September 11, 2001.................................    43
    Major Rehabilitation Needs...................................    48
    National Museum of the American Indian (on the Mall).........    52
    National Zoological Park.....................................    58
    Organizational Changes.......................................    41
    Patent Office Building.......................................    50
    Private Fundraising..........................................    42
    Research.....................................................    43
    Science Commission...........................................    46
    Security Needs...............................................    44
    Udvar-Hazy Center of the National Air and Space Museum at 
      Dulles.....................................................    55
    Victor building..............................................    62
Questions from Mr. Dicks.........................................    77
Questions from Mr. Moran.........................................    67
Research.........................................................     3
    Funding......................................................    35
    More Focused.................................................     7
Revitalization and Modernization.................................  2, 5
Security Enhancements............................................    23
Science Commission...............................................    38
Written Statement of Mr. Lawrence Small..........................     5

                    National Endowment for the Arts

Administrative Efficiency........................................   100
Artistic Merit...................................................   105
Arts Learning Initiative....................................93, 98, 102
Arts on Television and Radio.....................................   107
Biography of Ms. Eileen B. Mason.................................   101
Challenge America................................................93, 99
Controversial Grants.............................................   108
Engaging Children................................................   106
Funding Levels...................................................   106
Geographic Distribution of Grants................................   109
Matching Grants..................................................    93
Opening Remarks:
    Mr. Dicks....................................................    91
    Mr. Hinchey..................................................   106
    Mr. Kingston.................................................   108
    Mr. Nethercutt...............................................   104
    Mr. Skeen....................................................    91
Opening Statement of Ms. Eileen B. Mason.........................    92
Optimum Funding Levels...........................................   111
Patronage From Successful Recipients...........................104, 110
Percentage of Applications Funded................................   110
Private Contributions............................................    94
Program Emphasis.................................................   102
Questions for the Record.........................................   113
    Administration of the NEA....................................   158
    Alternative Funding..........................................   148
    Authorization................................................   135
    Impact of FY 1998 NEA Reforms................................   135
    National Council of the Arts.................................   146
    NEA Priorities...............................................   113
    Outreach Efforts--Challenge America..........................   117
    Program and Grants...........................................   152
    Save America's Treasures.....................................   162
Questions from Mr. Dicks.........................................   163
Reauthorization..................................................   102
Small Grants.....................................................   104
Staffing.........................................................   103
Strategic Plan...................................................   108
Strengthening Partnerships.......................................   100
Supporting and Preserving Artistic Excellence....................    97
Taking Art to America............................................   107
Tribute to Michael P. Hammond....................................    92
Website..........................................................   104
Written Statement of Eileen B. Mason.............................    95

                 National Endowment for the Humanities

Administrative Costs...........................................180, 181
Allocation of FY 2002 Appropriation..............................   184
Biography of Dr. Bruce Cole......................................   176
Humanities Education.............................................   184
Leveraging Private Support.......................................   184
New NEH Emphasis Area............................................   177
Opening Remarks:
    Dr. Dicks....................................................   167
    Mr. Hinchey..................................................   182
    Mr. Skeen....................................................   167
Opening Statement of Dr. Bruce Cole..............................   168
Questions for the Record.........................................   186
    Administrative Issues........................................   207
    Authorization................................................   197
    Chairman's Priorities........................................   186
    Education....................................................   190
    Developing New Audiences.....................................   197
    Funding Priorities...........................................   195
    Regional Humanities Center...................................   200
    Research and Preservation....................................   201
    Save America's Treasures.....................................   209
    State Programs...............................................   206
Questions from Mr. Dicks.........................................   210
Regional Humanities Centers....................................177, 182
Regional Humanities Centers Implementation Awards................   179
Staffing at NEH..................................................   180
State Humanities Councils........................................   180
``We The People''..............................................181, 183
Website..........................................................   180
Written Statement of Dr. Bruce Cole..............................   170

               Advisory Council on Historic Preservation

Questions for the Record.........................................   215
Testimony of Mr. John Nau, III, Chairman.........................   243

                        Commission of Fine Arts

Questions for the Record.........................................   249
Testimony submitted by the Commission............................   271

               Institute of Museums and Library Services

Clerk's Note.....................................................   279

                  National Capital Planning Commission

Testimony of Mr. John Cogbill, III, Chairman.....................   281

                United States Holocaust Memorial Museum

Testimony of Ms. Sara Bloomfield, Director.......................   289

                                <greek-d>


</pre></body></html>
